<html>
<title> - DOES THE ``TOTAL FORCE'' ADD UP? THE IMPACT OF HEALTH PROTECTION PROGRAMS ON GUARD AND RESERVE UNITS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   DOES THE ``TOTAL FORCE'' ADD UP? THE IMPACT OF HEALTH PROTECTION 
                  PROGRAMS ON GUARD AND RESERVE UNITS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2004

                               __________

                           Serial No. 108-181

                               __________

       Printed for the use of the Committee on Government Reform




  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-289                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 30, 2004...................................     1
Statement of:
    Mosley, First Sergeant Gerry L., 296th Transportation Co., 
      Brookhaven, MS, U.S. Army Reserves; Specialist John A. 
      Ramsey, 32nd Army Air Missile Defense Command, Florida 
      National Guard; Laura Ramsey; Sergeant First Class Scott 
      Emde, 20th Special Forces Group, B Co., 3rd Battalion, 
      Virginia National Guard; Lisa Emde; and Specialist Timothi 
      McMichael, U.S. Army Reserves, A Co., Medical Hold Unit, 
      Fort Knox, KY..............................................     4
    Winkenwerder, William, Jr., M.D., Assistant Secretary of 
      Defense for Health Affairs, Department of Defense, 
      accompanied by Lieutenant General George P. Taylor, Jr., 
      the Surgeon General, U.S. Air Force; Rear Admiral Brian C. 
      Brannman, Deputy Chief, Fleet Operations Support, Bureau of 
      Medicine and Surgery, U.S. Navy, and Wayne Spruell, 
      Principal Deputy Assistant Secretary of Defense, Reserve 
      Affairs, Manpower and Personnel; and Lieutenant General 
      James B. Peake, Surgeon General, U.S. Army.................   147
Letters, statements, etc., submitted for the record by:
    Emde, Lisa, prepared statement of............................    94
    Emde, Sergeant First Class Scott, 20th Special Forces Group, 
      B Co., 3rd Battalion, Virginia National Guard, prepared 
      statement of...............................................    89
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   136
    McMichael, Specialist Timothi, U.S. Army Reserves, A Co., 
      Medical Hold Unit, Fort Knox, KY, prepared statement of....    98
    Mosley, First Sergeant Gerry L., 296th Transportation Co., 
      Brookhaven, MS, U.S. Army Reserves, prepared statement of..     7
    Peake, Lieutenant General James B., Surgeon General, U.S. 
      Army, prepared statement of................................   165
    Ramsey, Laura, prepared statement of.........................    80
    Ramsey, Specialist John A., 32nd Army Air Missile Defense 
      Command, Florida National Guard, prepared statement of.....    26
    Winkenwerder, William, Jr., M.D., Assistant Secretary of 
      Defense for Health Affairs, Department of Defense, prepared 
      statement of...............................................   150

 
   DOES THE ``TOTAL FORCE'' ADD UP? THE IMPACT OF HEALTH PROTECTION 
                  PROGRAMS ON GUARD AND RESERVE UNITS

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Schrock, Kucinich, Turner, 
Maloney, Ruppersberger, Tierney, and Jo Ann Davis of Virginia.
    Staff present: Lawrence Halloran, staff director and 
counsel; Kristine McElroy, professional staff member; Robert 
Briggs, clerk; Jean Gosa, minority assistant clerk; and Andrew 
Su, minority professional staff member.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Does the `Total Force' Add Up: The Impact 
of Health Protection Programs on Guard and Reserve Units,'' is 
called to order.
    When Reservists and National Guard members join their 
active duty counterparts to form what is called the total 
force, they bring unique health needs to the battlefield. Long 
deployments and separation from family can have an especially 
negative impact on Guard and Reserve morale and performance. 
Cursory pre-deployment physical and mental health assessments 
might miss ailments and conditions that would be diagnosed and 
treated in the more closely monitored regular forces.
    Accessing care during and after mobilization is too often a 
dispiriting struggle against a bureaucracy prone to minimize or 
disparage their wounds, literally adding insult to injury. So 
today we ask, do current deployment health programs meet the 
specific health care needs of the citizen soldiers who make up 
a vital and growing part of the force structure?
    In the course of our oversight of 1991 Gulf war veterans' 
illnesses, we learned that weaknesses in force health 
protections exposed U.S. forces to avoidable risks. Pesticides 
were widely dispersed without adequate warning or safeguards. 
Use of experimental drugs was not properly monitored. Poor 
medical recordkeeping shifted the burden of proof to the 
service members to prove the source and extent of their 
exposures and injuries. A macho warrior culture tended to 
punish or stigmatize health complaints.
    After the first Gulf war, Congress mandated improvements to 
force health protections, including pre and post deployment 
medical examinations, mental health assessments and serum 
samples to better establish baseline health data. Recordkeeping 
was to be centralized, more accurate and more timely. The 
Department of Defense [DOD], has incorporated these 
requirements into a broader force health protection strategy 
that has enhanced both the quality and quantity of health care 
for service members and their families.
    But recent reports suggest that for some, military medicine 
is still a contradiction in terms, an oxymoron describing the 
victory of quantity over quality in the rush to front. 
Processing and treatment facilities have been overwhelmed by 
patients with conditions that should have prevented their being 
deployed at all. Injured Guardsmen and Reservists have 
languished in medical limbo, awaiting care only to be told they 
are suddenly ineligible because the paperwork extending their 
active duty status took too long. Recordkeeping is still 
inconsistent or lacking altogether.
    A recent survey of troops in Iraq found sufficient 
incidence of mental health stressors, anxiety, depression and 
traumatic stress, and that suicide prevention efforts are being 
strengthened. Our first panel of witnesses will describe their 
personal experiences with the deployment health system. We are 
grateful for their service, their continued courage, and their 
willingness to be here today.
    DOD witnesses will then describe their ongoing efforts to 
improve health protections and the standard of care for 
deployed forces. We look forward to their testimony as well.
    This hearing is part of a sustained examination of issues 
affecting Reserve and National Guard units. Last year, with 
Government Reform Committee Chairman Tom Davis, we exposed 
serious problems in Army Guard pay systems. Next month, the 
full committee will convene a hearing on National Guard 
transformation. Finally in May, this subcommittee will hear 
testimony on equipment and training shortfalls.
    At this time, the Chair would recognize Mr. Tierney for an 
opening statement.
    Mr. Tierney. I have no opening statement, Mr. Chairman. I'd 
like to get to the testimony as soon as we can.
    Mr. Shays. I thank the gentleman. Mr. Schrock.
    Mr. Schrock. Ditto.
    Mr. Shays. We have Mr. Turner.
    Mr. Turner. In the spirit of the proceeding, then, I'll 
pass also, thank you, Mr. Chairman.
    Mr. Shays. Ms. Jo Ann Davis, any statement you'd like to 
make?
    Mrs. Davis. Mr. Chairman, thank you very much.
    Mr. Chairman, I want to thank you for letting me be a part 
of the discussion this morning, and thank you for holding this 
important hearing. I especially want to thank Sergeant First 
Class Scott Emde and his wife Lisa for being here to testify. 
Scott and Lisa live in the First District in Yorktown, VA, and 
I'm proud to represent them.
    I want you to know how much I thank you for your service to 
our country. You and your family have made great sacrifices, 
all because of your loyalty and your dedication to our Nation. 
Thank you for all that you have done, and I look forward to 
hearing your testimony.
    Mr. Chairman, as we continue to fight the war against 
terrorism, the Reserve component, including the Army National 
Guard, Army Reserve, Naval Reserve, Marine Corps Reserve, Air 
National Guard, Air Force Reserve and the Coast Guard Reserve 
has been increasingly called upon to go to active duty. Out of 
the 1.8 million members of the Reserve component, over 300,000 
have been called to active duty since September 11, 2001.
    As more and more Guard and Reserve members are deployed, we 
have to make sure that they are getting the health care and the 
attention that they need. The issue of health protection 
programs for members of the Reserve component is extremely 
important. We don't want to have a repeat of Operation Desert 
Shield and Desert Storm, when more than 125,000 veterans of the 
Gulf war came back and experienced health problems because of 
their military service. And there were probably thousands more, 
but because of lack of health and deployment data, we're just 
not exactly sure.
    The Department of Defense's force health protection 
strategy was developed as a result of the lessons we learned 
from the Gulf war. Its purpose is to track service members, 
diseases and injuries and to provide followup treatment for 
deployment related health conditions. I look forward to hearing 
more about how the force health protection is working.
    Mr. Chairman, I serve on the Armed Services Committee and I 
feel very strongly about our Nation's military. These people 
give more than most Americans will ever be asked to give. And 
there is no comparison to the dedication and commitment that 
they have for our country. It's the least we can do to make 
sure that their health needs are taken care of.
    I thank you again, Mr. Chairman, for holding this hearing, 
and for allowing me to join you. I look froward to hearing the 
testimony of the witnesses. Thank you, Mr. Chairman.
    Mr. Shays. I thank you very much, Mrs. Davis.
    Let me first take care of some housekeeping. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all Members be 
permitted to include their written statements in the record, 
and without objection, so ordered.
    I ask even further unanimous consent that a March 29, 2004 
letter from Congressman Ric Keller to the subcommittee be 
entered into the record. The letter describes efforts to solve 
health care access problems on behalf of his constituent, Army 
Specialist John Ramsey, who will testify this morning. Without 
objection, so ordered.
    And also to welcome Mrs. Davis, she is a member of the full 
committee, she chairs the Subcommittee on Civil Service and 
Agency Organization, and without objection, she will be allowed 
to participate in this hearing as well.
    At this time, let me recognize the witnesses and then I 
will swear them in. Before recognizing witnesses, I thank the 
second panel, Dr. William Winkenwerder, for his acknowledgement 
that it is valuable to have this panel go first, and thank 
Lieutenant General James B. Peake as well for that. They are 
extending their courtesy and respect to this first panel, which 
this committee deeply appreciates.
    This first panel is First Sergeant Gerry L. Mosley, 296th 
Transportation Co., Brookhaven, MS, U.S. Army Reserves; 
Specialist John A. Ramsey, 32nd Army Air Missile Defense 
Command, Florida National Guard; Mrs. Laura Ramsey, spouse of 
Specialist John A. Ramsey; Sergeant First Class Scott Emde, 
20th Special Forces Group, B Co., 3rd Battalion, Virginia 
National Guard; Mrs. Lisa Emde, spouse of Sergeant First Class 
Scott Emde; and Specialist Timothi McMichael, U.S. Army 
Reserves, Medical Hold Unit, Fort Knox, KY.
    As is the practice, we swear in all our witnesses, and 
invite you all to stand and then we'll swear you in. Raise your 
right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Thank you all very much. We'll note for the 
record that all have responded in the affirmative. We'll do it 
as we called you, and I think you're sitting in that same 
order, so that's how we'll start. Sergeant, we'll start with 
you. Thank you and welcome.

      STATEMENTS OF FIRST SERGEANT GERRY L. MOSLEY, 296TH 
    TRANSPORTATION CO., BROOKHAVEN, MS, U.S. ARMY RESERVES; 
   SPECIALIST JOHN A. RAMSEY, 32ND ARMY AIR MISSILE DEFENSE 
 COMMAND, FLORIDA NATIONAL GUARD; LAURA RAMSEY; SERGEANT FIRST 
    CLASS SCOTT EMDE, 20TH SPECIAL FORCES GROUP, B CO., 3RD 
 BATTALION, VIRGINIA NATIONAL GUARD; LISA EMDE; AND SPECIALIST 
  TIMOTHI MCMICHAEL, U.S. ARMY RESERVES, A CO., MEDICAL HOLD 
                      UNIT, FORT KNOX, KY

    Sergeant Mosley. Mr. Chairman and distinguished members of 
the committee, on behalf of myself and hundreds of other 
mobilized soldiers in the U.S. Army Reserve and National Guard, 
I am honored and pleased to have the opportunity to address the 
issues this committee has been charged to investigate.
    Pre-deployment health assessment forms are grossly 
inadequate for use as medical screenings to determine if 
soldiers were medically capable in a duty combat setting. 
Soldiers with medical conditions that would be adversely 
affected by deployment were rubber stamped as if fit for duty. 
Medical profiles were ignored.
    I personally know of soldiers with profound hearing loss, 
insulin dependent diabetes, a soldier with Tourette's syndrome 
who would not have access to proper medications, serious 
allergies requiring refrigerated medications, cardiac disease, 
and unrepaired inguinal hernias. I'm sure that this esteemed 
committee can appreciate the significance and validity of my 
conclusions and recognize that these cases are not isolated or 
infrequent in nature.
    The process was a numbers game where the Army justified 
deploying troops. It was not about quality, healthy troops, it 
was about the quantity of troops. It was only after the October 
2003 report published by Mark Benjamin with UPI and the 
interventions by Mr. Steve Robinson of National Guard Resource 
Center that more emphasis was placed on better screening 
procedures. Those individuals who are responsible for screening 
soldiers do not listen or validate solider's accounts of the 
physical and mental health problems they are experiencing. The 
great motto, blow them off, get them through, hey, let's go to 
lunch.
    The most telling incident of in-theater medical care was 
the experience of one of my own soldiers. He continually went 
to sick call in Iraq complaining of painful urination, only to 
have my commander summoned to sick call. My commander was told 
this soldier was malingering and should be court martialed. 
That solider has just returned from Walter Reed Army Medical 
Center, having a cancerous bladder and prostate gland removed.
    What justification is given to a member of the U.S. Army to 
assume a man with cancer is malingering? What justification is 
given to this man to have him threatened to be thrown in jail? 
I ask you to ponder for one moment, if it was you, your father, 
your mother, brother, sister, son or daughter, how would you 
feel in a situation like this?
    Upon return to American soil, most soldiers have one thing 
in mind, just as I did, getting home to the family. But upon 
return from war with injuries or illness that causes a soldier 
to be unfit for future military service, the inefficient, 
uncaring, progressively escalating campaign by the U.S. Army of 
inflicting mental duress called the Medical Evaluation Board 
proceeding, is started. The U.S. Army must be proud of the 
bureaucracy at Fort Stewart that is capable of driving a 
soldier to the brink of insanity while flippantly turning its 
back on the physical and mental health needs of men and women 
who are just returning from war.
    After the press coverage, it seemed things were improving. 
However, it didn't take long for things to cool off, and we 
were still in the same old holding pattern. You do see care 
providers more than before, but it's just more or less a how 
are you doing process. Instead of receiving specialty consults 
or aggressive treatments, soldiers get a prescription for a new 
pill, all we want is a fix me, don't pill me. I hold up today, 
before I mobilized in January 2003, an empty bag of the 
medications that I took. If I took every pill prescribed to me 
on a daily basis, I would be taking 56 pills a day. I would be 
taking pills, I couldn't even get out of bed this morning.
    MEB cases were dictated, having a soldier sign, concurring, 
thinking that they would be rated on whatever was wrong with 
them. That's not the truth. Many times during our required 
meeting with our case managers, I would complain of both my 
arms being numb, my neck hurting, stiff, and the shaking. It 
was only after my Board that I was finally sent to a civilian 
neurologist, an MRI was done, I have severe, inoperable 
cervical spondylosis and also Parkinson's disease. That was 
after many complaints, e-mails to Brigadier General Farrissee 
at Medical Command asking her to have someone call me, all this 
communication again. We were talking, no one was listening.
    Medical recordkeeping is a simple statement, haphazard and 
inconsistent. There was no medical recordkeeping for Reserve 
soldiers in Iraq. Records for our company were not even 
brought.
    I want to make these comments, but I'll address the family 
support program. Each Reserve and National Guard unit has a 
family readiness group. There are some that are strong and some 
that are basically non-functioning. Most of our spouses are at 
home taking care of our children or they're working their own 
jobs.
    I have served my country faithfully for 31 years. The 
feeling of inequality between the Reserve and the active 
component is still there. I can assure you that each time I was 
fired at by an Iraqi soldier, I never heard the first one of 
them say, First Sergeant Mosley, I'm sorry, we didn't know you 
were a Reservist.
    Let me assure you that the Reserve and the Guard were just 
as willing to die defending this great country as the active 
component. We sacrificed in some cases more, some Reservists 
and Guard are mobilized on a reduced income.
    The Reserve and Guard is a numbers game measured by money. 
The Reserve command knows it is required to keep a certain 
number of troops to justify their budget request. You've never 
been asked for less money next year than you were this year. 
There are soldiers in each unit that cannot pass PT tests, 
there are soldiers in each unit that do not come to drill, but 
yet the command keeps them to keep that number.
    Medical hold is a numbers game as well. A lot of soldiers 
feel that the only improvement was living conditions, but that 
wasn't until 2 weeks ago, when now you have 16 soldiers in a 24 
by 60 double wide with two restrooms. If an intestinal virus 
was to break out, there would be problems.
    There is a grave in Jackson, MS that I see every time I go 
to visit my father's grave. It's of a World War II veteran, 
infantry soldier, bronze star recipient, and permanently 
inscribed on his grave is, I have fought and I have fought 
well. I did not let my country down, but my country let me 
down. My desire today for this committee is to see that you all 
do all you can in your power that not another soldier dies 
defending this country going to his grave having something like 
that inscribed on a tomb.
    I'd be happy to answer any questions, again, I thank you 
for allowing me the opportunity to be here, even if I did go 
over my time.
    [The prepared statement of Sergeant Mosley follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.001
    
    [GRAPHIC] [TIFF OMITTED] T5289.002
    
    [GRAPHIC] [TIFF OMITTED] T5289.003
    
    [GRAPHIC] [TIFF OMITTED] T5289.004
    
    [GRAPHIC] [TIFF OMITTED] T5289.005
    
    [GRAPHIC] [TIFF OMITTED] T5289.006
    
    [GRAPHIC] [TIFF OMITTED] T5289.007
    
    [GRAPHIC] [TIFF OMITTED] T5289.008
    
    [GRAPHIC] [TIFF OMITTED] T5289.009
    
    [GRAPHIC] [TIFF OMITTED] T5289.010
    
    [GRAPHIC] [TIFF OMITTED] T5289.011
    
    [GRAPHIC] [TIFF OMITTED] T5289.012
    
    [GRAPHIC] [TIFF OMITTED] T5289.013
    
    [GRAPHIC] [TIFF OMITTED] T5289.014
    
    [GRAPHIC] [TIFF OMITTED] T5289.015
    
    Mr. Shays. Thank you, Sergeant. I know that you left out a 
good part of your statement as well.
    Sergeant Mosley. Yes, I did.
    Mr. Shays. We do appreciate your statement and we do 
appreciate your trying to stay close to that 5 minutes, and you 
did. We'll ask the same of the others.
    Specialist Ramsey.
    Specialist Ramsey. Mr. Chairman and distinguished members 
of the committee, on behalf of myself and hundreds of other 
mobilized soldiers of the National Guard and U.S. Army Reserve, 
I'm honored and pleased to have the opportunity to address you 
today.
    Mine will be nowhere near the length of my statement, my 
statement is over 20 pages, with over 30 documents attached to 
it. So I'm going to brief in into a much smaller, condensed 
version.
    I was improperly released from Fort Benning, GA, when I 
returned from serving my country in Kuwait and Iraq. When I 
returned, I had an injury that was documented in Kuwait. I had 
damaged my right rotator cuff. I also had other issues and 
other problems with numbness in my fingers in both hands. I 
addressed this to the doctor there in Kuwait, he noted it at 
one point, that I had the numbness in the hands, and addressed 
it as being overcompensation for the lack of strength in my 
right shoulder.
    I returned with a completed LOD for the right shoulder and 
a followup visit or a referral for an MRI once I returned to 
the States. Being in Kuwait, Camp Doha, and in that general 
area, they did not have the ability to do MRIs or nerve study 
tests that were required of me once I returned to the States.
    When I returned to Fort Benning, our process was to get us 
out as quickly as possible, not to treat us. I went to the 
treatment facility there, the out-processing medical treatment 
facility and spent approximately 15 minutes in the building. 
Between 3 and 5 minutes were spent with a PA who looked over my 
paperwork. Once I had established that I had a completed LOD 
and established that I had a completed referral for medical 
treatment, she said there would be no problem with me returning 
to my Reserve unit in Orlando, FL for followup treatment.
    At that point, I was under the understanding that I was not 
being released from active duty, that I was being merely placed 
over to my Reserve unit for continued treatment. Prior to 
leaving, I called my wife and told her that I was probably 
going to be staying in Fort Benning for treatment, based on a 
conversation I had with a sergeant major that was traveling 
with me. Obviously to the delight of myself and to my wife and 
kids, I was coming home and going to receive treatment at my 
home station.
    I returned home to my Reserve unit, reported in the first 
business day that was available to them and explained my 
situation, turned over my medical documents that I had. They 
were astounded that I was released from active duty and even 
voiced that, that I should not have been released from active 
duty, and attempted to put me back on active duty. I was then 
told to seek an orthopedic surgeon and have an appointment for 
a diagnosis/prognosis and a time before I returned to full 
duty. I followed the instructions while on my own leave, 
instead of spending leave with my family, I went and took care 
of business for the Army.
    I went to these appointments, and after several months of 
going back and forth and having two surgeries on both shoulders 
and still requiring two more surgeries on my elbows, it has now 
been told to me that I at first did not qualify for 
incapacitation pay, which is a basic pay recovery system for 
your civilian pay. It's not an active duty pay. There's no 
active duty retirement points. There's no leave accrued. 
There's no TRICARE for your family for followup benefits. I was 
told I do not qualify for that, that I had to be put on ADME. 
Then I was told I did not qualify for ADME because I was 
released from active duty.
    This fight went back and forth between the Florida Army 
National Guard, the National Guard Bureau and the active Army 
for several months. Meanwhile, my family and I were going 
without a paycheck for over 6 months.
    Congressman Ric Keller got involved, and Channel 9, our 
local news channel got involved. They made a difference in 
this. They got the Army to agree to put me back on active duty 
starting December 1st and the National Guard to reimburse me 
for my lost pay from the day I was released from active duty, 
June 27th through December 1st. This was agreed upon by both 
parties.
    On December 10th, I have now in my possession an e-mail 
from Colonel Sherman, who's the G-1 of the Army for the medical 
side, who clearly stated in her e-mail that she was going 
forward with the ADME, me being placed on ADME. On December 
23rd, we had a phone conference call between myself and several 
other parties, including Colonel Sherman, at which time she 
said that she was not going to place me back on ADME. Her first 
response to that was because I had already been paid incap pay 
and she was not going to mix an incap pay status with an ADME 
status. An ADME status is an active duty medical extension.
    Then later on in the conversation, she further stated that 
she was not going to take on any new medical issues that she 
was not apprised of prior. For example, if I had fallen and 
broken my arm between the time I was released from active duty 
and December 1st and I required additional treatment for that, 
she did not want to accept that as a medical treatment. She 
said that is something that would have happened outside the 
scope of my active duty time.
    I truly understand that. But I'm not coming and asking for 
anything that I did not report or had documented prior to being 
released from active duty. When I was released from active 
duty, I went to the doctor's appointments that were required of 
me, I went to the MRIs and the nerve study tests which were 
documented less than a month after I was released from active 
duty. Those tests clearly stated that I was injured while on 
active duty.
    So after December 23rd, we went back and started looking at 
the incap issue. I was basically given incap, which is, I have 
the choice between incapacitation pay versus active duty 
medical extension. I was never given that choice, I was told 
that this was all I was going to get. So of course, I try to 
take as little bit as I can and try to better myself and 
continue on, I took it.
    Now, I'm being told that I'm being sent to Fort Stewart, FL 
under an incap position. That's an incapacitation pay, which 
does not give me retirement points, does not give me leave 
accrual, does not give me TRICARE for myself or my family, does 
not give me the normal active duty things I would have if I was 
on active duty.
    I now have, I went on February 11th to Fort Stewart this 
year, and I met with the doctors, the Army sent me for a fit 
for duty physical. When I spoke with the doctor there, the 
orthopedic PA and the orthopedic surgeon, they both put in 
their document that was signed, the FS 600, that I clearly was 
injured while on active duty, and it was clearly done while in 
the line of duty. And it clearly stated that I should be placed 
back on active duty for medical treatment, and if not back on 
active duty, that I should receive civilian treatment, paid for 
by the Army, until these issues are resolved.
    I work for the Orange County Sheriff's Department. That's 
my desire, is to go back to where I work. Now I can't go back 
as a road deputy. My safety is important to me, but more than 
that, it's to the other deputies and the civilians that I have 
work with and beside. I could never forgive myself if I went 
back injured because I decided that I did not want to continue 
this fight with the Army and get this treatment and something 
were to happen to somebody.
    I'm being sent back, like I said, to Fort Stewart. I have 
to report there tomorrow at 13. My flight is going to leave 
here at 9:30, so I'll be in around 1 a.m., in Florida. I'm 
going to have to be in a vehicle driving to Fort Stewart, I'm 
going to have to report on a daily basis in formation, in 
uniform, while all the time not receiving any type of 
retirement points, not receiving leave. So I'm going to be just 
like every other soldier there, but with less. And this is the 
thanks I get for serving my country, not once but several 
times. This is not my first deployment.
    If you'll notice today, I'm not wearing my combat patch on 
my uniform. I'm entitled to wear my combat patch and combat 
stripes, as I've served in combat. But I'm not wearing it, 
because my combat hasn't ended yet. I've only returned from one 
battle to another. The military has created another issue for 
me, another battle. And I feel like in so many cases I'm by 
myself fighting in a large entity with no resolve here.
    So I hope today that by me testifying that this is going to 
resolve a lot of issues. I'd like to add just one last thing, 
I'm probably over my time. My medical bills. I have over 
$15,000 still outstanding in medical bills. It was well over 
$30,000. Because I signed the paper saying that I would be 
ultimately responsible for this, even though the military has 
given written documentation saying that they would pay these 
medical bills.
    My credit has now been affected. I receive on a daily basis 
at least 5 to 10 calls a day from collection agencies and 
medical doctors' offices asking me to pay these bills. The 
military has told me countless times that these bills have been 
paid, they've been taken care of, they're in the works. And to 
this date, as late as Friday before coming here, I was 
receiving calls from Florida Hospital still saying that I owed 
over $15,000 for surgeries.
    So whatever is said today by anybody that any medical bills 
have been taken care of, I can tell you that some of them have 
been, only because of the issues and them finding out I'm going 
to be testifying. But for the most part, they have not been. 
This right here is just a stack of medical bills that I get on 
a daily basis that have not been paid. And of course, this is 
all my documentation and medical treatments that I've had.
    I just ask that this committee help me and other soldiers 
in my situation, so we are no longer having to face these 
issues. Thank you for the time.
    [The prepared statement of Specialist Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.016
    
    [GRAPHIC] [TIFF OMITTED] T5289.017
    
    [GRAPHIC] [TIFF OMITTED] T5289.018
    
    [GRAPHIC] [TIFF OMITTED] T5289.019
    
    [GRAPHIC] [TIFF OMITTED] T5289.020
    
    [GRAPHIC] [TIFF OMITTED] T5289.021
    
    [GRAPHIC] [TIFF OMITTED] T5289.022
    
    [GRAPHIC] [TIFF OMITTED] T5289.023
    
    [GRAPHIC] [TIFF OMITTED] T5289.024
    
    [GRAPHIC] [TIFF OMITTED] T5289.025
    
    [GRAPHIC] [TIFF OMITTED] T5289.026
    
    [GRAPHIC] [TIFF OMITTED] T5289.027
    
    [GRAPHIC] [TIFF OMITTED] T5289.028
    
    [GRAPHIC] [TIFF OMITTED] T5289.029
    
    [GRAPHIC] [TIFF OMITTED] T5289.030
    
    [GRAPHIC] [TIFF OMITTED] T5289.031
    
    [GRAPHIC] [TIFF OMITTED] T5289.032
    
    [GRAPHIC] [TIFF OMITTED] T5289.033
    
    [GRAPHIC] [TIFF OMITTED] T5289.034
    
    [GRAPHIC] [TIFF OMITTED] T5289.035
    
    [GRAPHIC] [TIFF OMITTED] T5289.036
    
    [GRAPHIC] [TIFF OMITTED] T5289.037
    
    [GRAPHIC] [TIFF OMITTED] T5289.038
    
    [GRAPHIC] [TIFF OMITTED] T5289.039
    
    [GRAPHIC] [TIFF OMITTED] T5289.040
    
    [GRAPHIC] [TIFF OMITTED] T5289.041
    
    [GRAPHIC] [TIFF OMITTED] T5289.042
    
    [GRAPHIC] [TIFF OMITTED] T5289.043
    
    [GRAPHIC] [TIFF OMITTED] T5289.044
    
    [GRAPHIC] [TIFF OMITTED] T5289.045
    
    [GRAPHIC] [TIFF OMITTED] T5289.046
    
    [GRAPHIC] [TIFF OMITTED] T5289.047
    
    [GRAPHIC] [TIFF OMITTED] T5289.048
    
    [GRAPHIC] [TIFF OMITTED] T5289.049
    
    [GRAPHIC] [TIFF OMITTED] T5289.050
    
    [GRAPHIC] [TIFF OMITTED] T5289.051
    
    [GRAPHIC] [TIFF OMITTED] T5289.052
    
    [GRAPHIC] [TIFF OMITTED] T5289.053
    
    [GRAPHIC] [TIFF OMITTED] T5289.054
    
    [GRAPHIC] [TIFF OMITTED] T5289.055
    
    [GRAPHIC] [TIFF OMITTED] T5289.056
    
    [GRAPHIC] [TIFF OMITTED] T5289.057
    
    [GRAPHIC] [TIFF OMITTED] T5289.058
    
    [GRAPHIC] [TIFF OMITTED] T5289.059
    
    [GRAPHIC] [TIFF OMITTED] T5289.060
    
    [GRAPHIC] [TIFF OMITTED] T5289.061
    
    [GRAPHIC] [TIFF OMITTED] T5289.062
    
    [GRAPHIC] [TIFF OMITTED] T5289.063
    
    [GRAPHIC] [TIFF OMITTED] T5289.064
    
    [GRAPHIC] [TIFF OMITTED] T5289.065
    
    [GRAPHIC] [TIFF OMITTED] T5289.066
    
    [GRAPHIC] [TIFF OMITTED] T5289.067
    
    Mr. Shays. Thank you, Specialist Ramsey. We will be 
helping.
    Mrs. Ramsey.
    Mrs. Ramsey. I would like to thank the committee for the 
honor and privilege to testify from a wife's perspective 
regarding Reserve military family life. My husband, Specialist 
John A. Ramsey, comes from a family with a proud history of 
serving the U.S. military. His grandfather, Charles J. Bondley, 
Jr., a graduate of West Point, was a two star general in the 
Air Force who served during World War II alongside General 
MacArthur and General LeMay. His father, Thomas W. Ramsey, Sr., 
also served two tours of duty during the Vietnam War in the 
Army. His brother and half sister are currently in the 
military.
    While John was a Reserve, he has been called to active duty 
to support the firefighters during the wildfires in central and 
west Florida, Operational Noble Eagle and Operation Enduring 
Freedom and also Operation Iraqi Freedom. During his deployment 
of Operation Iraqi Freedom, John was injured while loading 
heavy equipment overhead. At no time was I notified of his 
injury, medical treatment or progress of his recovery, either 
by the U.S. military or his unit. The family residence program 
did e-mail a couple of times, but nothing newsworthy concerning 
John. I received no phone calls or personal visits from any 
military personnel. On the other hand, the Orange County 
Sheriffs Office, John's civilian employer, called me monthly.
    John was deployed for 5 months in Kuwait and Iraq. This 
period was very stressful on our two children, Chris, age 7, 
and Sarah, age 2. Chris received counseling at his school and 
my daughter was also having a difficult time with John's 
absence. Our children had a hard time with it. Even now our 
family struggles with the emotions due to John's absence.
    We supported and continue to support the efforts in Iraq. 
However, if it hadn't been for mine and John's family, as well 
as the Orange County Sheriffs Office, during his deployment 
things would have probably been emotionally and physically 
devastating, especially since I felt completely isolated from 
the military.
    John contacted me upon arriving in Benning, GA, saying that 
he would be receiving medical treatment and be staying there. 
He was given an LOD and referral for medical treatment. The 
U.S. military released him to his unit to have his medical care 
administered through them. Approximately 2 weeks after 
returning home, he was discharged from active duty. His unit 
assured him that this deactivation was a mistake and that they 
were taking action to reinstate him. His unit and the Florida 
National Guard fought with the Florida National Guard Bureau 
and the U.S. Army to place him back on active duty.
    In that 8 months that they fought, John had two military 
authorized surgeries and was going through physical therapy. 
His civilian doctors discontinued medical treatment and 
physical therapy in February due to non-payment of his medical 
bills by the military. As of today, the military still has not 
paid all his medical bills resulting in our receiving 
collection calls and notices on a regular basis.
    These 8 months from the time John returned home to the end 
of June 2003 through March 2004 have been extremely stressful, 
emotionally exhausting and financially devastating. We did 
finally receive payment in December from June to December, only 
after the help of Florida Congressman Ric Keller and WFTB 
Channel 9's Josh Einiger being involved in the negotiations. 
But in that 8 months, we had completely depleted our savings 
account, had to borrow money from our parents and children's 
savings accounts to pay our monthly expenses.
    It then took the military another 3 months to issue John's 
check for December to February, which has started the debt 
cycle all over again. It's extremely difficult to budget for 
monthly payments when the military is only paying ever 3 to 6 
months, if at all.
    The military is demanding copies of our 2002 and 2003 tax 
returns with no explanation of why they need them. John has 
started smoking due to all the stress the military has caused 
him. And Sarah, our daughter, doesn't understand why her father 
can't play with her.
    As my husband was saying now, the military is going to send 
him back to Benning, GA, to continue his medical treatment, 
other than being treated by the civilian doctors who initiated 
his initial treatment, however, they seem to want him to report 
on a voluntary basis, since they are not wiling to restate him 
back to active duty. In his absence, I will have to resume all 
the household responsibilities alone again, with no projected 
date of his return, while comforting two children for the third 
time the military has taken their father from them.
    After considering my past experience with the military, I 
have serious doubts as to John receiving proper medical 
treatment and am skeptical whether he will be paid. I also have 
massive concerns as to the treatment he will receive by the 
active military personnel who he will be reporting to. Thank 
you.
    [The prepared statement of Mrs. Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.068
    
    [GRAPHIC] [TIFF OMITTED] T5289.069
    
    [GRAPHIC] [TIFF OMITTED] T5289.070
    
    [GRAPHIC] [TIFF OMITTED] T5289.071
    
    [GRAPHIC] [TIFF OMITTED] T5289.072
    
    [GRAPHIC] [TIFF OMITTED] T5289.073
    
    [GRAPHIC] [TIFF OMITTED] T5289.074
    
    Mr. Shays. Thank you, Mrs. Ramsey. It's very important that 
we heard your perspective, and we thank you.
    Sergeant Emde.
    Sergeant Emde. Good morning, Mr. Chairman and members of 
the Subcommittee on National Security, Emerging Threats and 
International Relations. My name is Scott Emde, and I have been 
a member of the Virginia National Guard Reserves and active 
Army since 1980.
    On January 10, 2002, I was activated for Operation Enduring 
Freedom and reported to Fort Bragg to train for a mission 
overseas. Most of the teams were sent to Afghanistan, but mine 
was sent to Qatar. In June, my shoulder was injured and I was 
diagnosed with a torn rotator cuff. Twelve hours later I was on 
a plane and the following day arrived in Landstuhl, Germany, 
where I assumed I would receive treatment and return to Qatar 
to be with my teams. I remained in Germany for 2 to 3 weeks and 
then was taken to Walter Reed for further diagnosis.
    Once I arrived at Walter Reed, I was told I would have to 
stay in the hotel on base as there were no rooms for enlisted 
people. The rooms were nice, but they were $30 to $35 a night, 
and I would be there weeks before I had an appointment. 
Additionally, I came back from Qatar with four big boxes 
totaling roughly 1,000 pounds. These boxes had to be stored in 
my hotel room, and there was no room in the hotel, and I had to 
climb over the boxes to get where I needed to go.
    The 3 week stay for the doctor's appointment was a bit 
unexpected, and the hotel bill was a bit of a strain 
financially. This was of course paid back when I was able to 
file a travel voucher. Luckily, the equipment was only a minor 
inconvenience, as my wife drove up from the Hampton Roads area 
with a U-Haul trailer and the equipment was stored at my house. 
After the 3-weeks were up, I saw Dr. Doukas and a surgery date 
was set for October 30th, 3 months later.
    I was sent to Fort Bragg, where I spent the first half of 
the day at battalion headquarters briefing the commander on 
situation reports and various ODAs in the countries of the 
world. I kept up with the rest of the 20th group as they were 
getting ready to deploy to Afghanistan. The second half of the 
day was spent running company B operations with another 
enlisted soldier. Shortly after we received all the teams back, 
I went to Walter Reed for my surgery.
    Immediately after surgery, my wife drove me 3 hours home to 
the Hampton Roads area to recover. Physical therapy started the 
following week at Fort Eustis for 6 weeks. Then I had to report 
to Fort Bragg for 4 to 6 weeks for therapy and clear post. Then 
I was sent to Walter Reed as a medical hold and that very 
afternoon sent home again, as there was no room at the inn.
    I continued therapy and volunteered in the PT department as 
I waited for orders. This went on for 6 weeks. I then drove 
back up to Walter Reed for a followup and visited a neurologist 
for problems I had in my neck. He wrote orders for an MRI and a 
CAT scan to be done at Langley Air Force Base. Since they 
didn't have the equipment at Langley, I was then sent to 
Portsmouth Naval Hospital, who didn't want to accept the 
doctor's order because there was no reason for tests given on 
the slip. When I called Walter Reed for the correction, the 
doctor had left for vacation.
    I kept calling to arrange for treatment between Portsmouth 
and Walter Reed, and it was during this time that my orders 
were set to run out. So I filled out the paperwork to extend 
the orders with the hope of a continuous pay check. This did 
not happen in March and again in June. I have noted 145 phone 
calls calling to extend my contract in the Army, check on pay 
issues and make medical appointments, calling everywhere from 
Walter Reed to the National Guard Bureau in Washington and to 
Fort Bragg, NC. This is by no means the total amount made.
    The last time that I didn't receive orders, I went without 
a pay check for 2 months. After my therapy ended in October, I 
reported to Fort Bragg and they had no knowledge of my 
existence. I had fallen through the proverbial cracks. With the 
process that frequently takes 3 to 4 days, mine took 3 to 4 
weeks. Instead of extending my orders to the suggested date, 
they were extended for a couple of days at a time.
    The problem with this was that it took several days to 
process the paperwork and the orders were late by the time they 
were sent to Fort Bragg, so the process began again. I finally 
signed out at 14:20 on November 7, 2003.
    But I must say, I'm more fortunate than these people beside 
me. Even with all the problems I encountered, I was very 
pleased with my medical experience. Like my wife, I was very 
skeptical of the idea of military surgeon working on my 
shoulder, especially when no x-ray or MRI was done for 
diagnosis. And then again when I was told it would be an open 
procedure and not done otoscopically.
    As a nurse working in the same day surgery setting for 
Sentara Hospital, in my opinion the health care I received was 
as good or better than any I have seen. I particularly 
appreciated the physicians seeing me in such a short timeframe 
on the days that I had to drive 3 hours for two appointments 
that were 4 to 5 hours apart. The physical therapy was an eye 
opening experience but went smoothly despite being transferred 
from one installation to another.
    [The prepared statement of Sergeant Emde follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.075
    
    [GRAPHIC] [TIFF OMITTED] T5289.076
    
    [GRAPHIC] [TIFF OMITTED] T5289.077
    
    [GRAPHIC] [TIFF OMITTED] T5289.078
    
    Mr. Shays. We appreciate your statement.
    Mrs. Emde.
    Mrs. Emde. Good morning, Mr. Chairman and members of the 
subcommittee.
    As a spouse of an activated National Guardsman, I felt both 
pride and fear as my husband shipped out for Operation Enduring 
Freedom in early May 2002, after 5 months training at Fort 
Bragg. When he called in June to say that he had injured a 
shoulder and would be shipped home, my first thought was that I 
did not want him seeing a military doctor. After being raised 
in Tidewater, VA, home of numerous military bases, Army, Navy, 
Air Force and Marines, I had heard many, many horror stories of 
treatment by military doctors and the incompetence of their 
nurses and staff.
    My husband was fortunately assigned to Walter Reed Medical 
facility. After his surgery, and I met his surgeon in October 
2002, I was very, very pleased. His surgeon came out personally 
to speak with me, took time to explain the surgery, post-
operative treatment, even went as far as giving me his home 
telephone number so that I could reach him in case I had any 
questions.
    Despite the good medical attention my husband did receive, 
the administrative runaround was deplorable. We had his orders 
lapse four times during that time. One of the times we went 2 
months without pay. During that time, our mortgage was late, I 
was called daily at my office by our mortgage company, it was 
reported to the credit bureau that we were late on payments. 
That stays with us. It will stay with us for many years to 
come.
    It hasn't affected us as far as trying to refinance our 
mortgage now to get a lower interest rate. I had checks bounce 
because of an automated payment that I could not stop coming 
out from a schedule, it would come out on the 17th, payment did 
not come on the 15th as was expected. I had to pay bank fees. 
Those were never reimbursed to us. It's something we will live 
with forever.
    The stress that something like this causes on a National 
Guard family is just extreme. I can't imagine how families who 
have only one income and encounter these types of pay glitches 
survive. We were fortunate that we are a two income household 
and we were able during these periods to pay for utilities, 
food, gas, all the standard costs of living.
    It's hard enough for National Guard families to have their 
lives disrupted for activation to full duty. However, the delay 
in prompt medical treatment and surgery because of lack of 
doctors, lapses in pay are both deplorable and unnecessarily 
add to this hardship. For both my family and others of the 
National Guard who have had problems similar to ours, I thank 
the subcommittee for their time and effort on our behalf.
    [The prepared statement of Lisa Emde follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.079
    
    [GRAPHIC] [TIFF OMITTED] T5289.080
    
    Mr. Shays. I thank you for your testimony, Mrs. Emde.
    Specialist McMichael, thank you very much for being here.
    Specialist McMichael. Yes, sir. Good morning, Mr. Chairman 
and distinguished members of the committee. I'd like to thank 
you from the bottom of my heart for giving me the opportunity 
to speak here today.
    My fellow medical hold soldiers and I have prayed for a 
chance to tell our story. I tried to include a few of their 
stories in my written statement. I realize that my poor writing 
ability fails to do them justice. I can only hope that what 
I've written sparks some sort of interest. Between my speech 
and written statement, I hope to raise enough questions that 
somewhere, someone will look more closely at what's going on at 
Fort Knox.
    The Army has repeatedly maintained that there is no 
difference between the active duty soldiers and the National 
Guard and Reserve soldiers when it comes to their treatment. I 
invite each member to come to Fort Knox and see how we are 
treated and how we are forced to live. Compare our living 
conditions to the active duty soldiers. I ask that this 
committee also take a close look at the physical evaluation 
board and the rulings and decisions. Many of my fellow soldiers 
had their injuries or illnesses declared as existing prior to 
entering active service. You just have to ask, if they are in 
such bad shape they can no longer remain on active duty, why 
were they ever brought to active duty in the first place?
    The few soldiers who do receive a disability rating or 
severance are awarded amounts that are so low they're 
insulting. I ask you, how can they justify awarding 10 percent 
to a soldier who broke his back? This man can never pick up his 
children again, he's permanently disabled and can never enjoy 
what you or I take for granted.
    Soldiers have repeatedly asked, why such low awards? No one 
has answered the questions. We are told that the VA will take 
care of us. I thought that was the Army's responsibility. 
Soldiers come to me every day with horror stories of medical 
care gone wrong, and in some cases absolutely refused. I agreed 
to come here today because someone has to speak for these 
soldiers. Someone needs to ask Congress to come to Fort Knox to 
hear their stories. Whoever comes to Fort Knox needs to speak 
with the individual soldiers on a one on one basis, without the 
command standing over top of them.
    They need to talk to the individual soldiers, not just the 
ones that are hand picked by the command. The soldiers do want 
to talk to you. However, they fear retaliation. I've been in 
the military for 18 years. Retaliation is real. It happens.
    I don't want the committee to also think everything I have 
to say is negative. There have been a few positive things that 
have occurred in medical hold. Two officers in particular I 
want to talk about, one is Lieutenant Fannon. When I arrived at 
Fort Knox, he was the only medical officer who reviewed our 
cases. This is one man reviewing 300 soldiers' cases. It was 
his job to review every single soldier and see every single one 
of us to receive the medical care we needed. This officer 
showed that he cared about us, one of the few that actually 
did. Often he was the only person who was on our side.
    The other officer I have to tell you about is the hospital 
chaplain, Major Norwood. It doesn't matter what your religious 
affiliation is, this man would talk to you. I have sent many 
soldiers to him that have had problems and needed someone to 
talk to, because they could not talk to the behavioral health 
representatives.
    I have to tell you, this man has saved lives. There are 
soldiers who have reached such levels of hopelessness and 
frustration that suicide seemed like the only way out. Many 
have talked to him and I know for a fact he has saved lives.
    Soldiers in the barracks are resorting to alcohol and even 
drugs. Recently several soldiers were punished for illegal drug 
use. If you ask the soldier, I ask you, if the soldiers were 
not feeling so lost and hopeless, would alcohol and drugs be 
such a problem? I think that bringing these issues to light is 
the first step toward fixing the problem.
    The projected mission requirements mentioned by the Army 
have shown that more and more Guardsmen and Reservists are 
going to be called to active duty. This can only mean a steady 
stream of soldiers coming through medical hold. Some of the 
other members here have mentioned some other issues, well, 
First Sergeant mentioned medication. That seems to be the 
answer to everything in the Army, better living through 
chemicals. There are soldiers in my barracks who are taking 
twice the medication that he is. I once lined up all my empty 
pill bottles on the wall as a political statement and was 
punished for it--or excuse me, I was reprimanded.
    I've been in medical hold since May 28th of last year. My 
unit has never called, they've never called the Army to see how 
I'm doing, they've never called my family, they've never 
notified my family, they've never even asked how I am. And you 
were talking about orders expiring, my orders are set to expire 
in 15 days. I'm just waiting to see whether I'm going to be 
paid after that.
    Thank you.
    [The prepared statement of Specialist McMichael follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.081
    
    [GRAPHIC] [TIFF OMITTED] T5289.082
    
    [GRAPHIC] [TIFF OMITTED] T5289.083
    
    [GRAPHIC] [TIFF OMITTED] T5289.084
    
    [GRAPHIC] [TIFF OMITTED] T5289.085
    
    [GRAPHIC] [TIFF OMITTED] T5289.086
    
    [GRAPHIC] [TIFF OMITTED] T5289.087
    
    [GRAPHIC] [TIFF OMITTED] T5289.088
    
    [GRAPHIC] [TIFF OMITTED] T5289.089
    
    [GRAPHIC] [TIFF OMITTED] T5289.090
    
    [GRAPHIC] [TIFF OMITTED] T5289.091
    
    [GRAPHIC] [TIFF OMITTED] T5289.092
    
    [GRAPHIC] [TIFF OMITTED] T5289.093
    
    [GRAPHIC] [TIFF OMITTED] T5289.094
    
    [GRAPHIC] [TIFF OMITTED] T5289.095
    
    [GRAPHIC] [TIFF OMITTED] T5289.096
    
    [GRAPHIC] [TIFF OMITTED] T5289.097
    
    [GRAPHIC] [TIFF OMITTED] T5289.098
    
    [GRAPHIC] [TIFF OMITTED] T5289.099
    
    [GRAPHIC] [TIFF OMITTED] T5289.100
    
    [GRAPHIC] [TIFF OMITTED] T5289.101
    
    [GRAPHIC] [TIFF OMITTED] T5289.102
    
    [GRAPHIC] [TIFF OMITTED] T5289.103
    
    [GRAPHIC] [TIFF OMITTED] T5289.104
    
    [GRAPHIC] [TIFF OMITTED] T5289.105
    
    [GRAPHIC] [TIFF OMITTED] T5289.106
    
    [GRAPHIC] [TIFF OMITTED] T5289.107
    
    Mr. Shays. Thanks to all of you. We'll start the questions 
with Mr. Schrock. I think we'll do 5 minutes for Members then 
we'll do a second round.
    Mr. Schrock. Thank you, Mr. Chairman. It's sort of like 
deja vu all over again, we've been hearing this over and over 
again. I know it takes time to get problems solved. But I think 
when we get to the point where people's credit is being ruined, 
they have to pay for hotel advances out of their own pay 
instead of getting per diem like it was when I was active duty 
Navy, I don't know what the answer is. We've had folks here 
before, actually, we need to address the questions of the four 
gentlemen sitting behind you, and make no mistake about it, we 
will.
    As good as it was to have the men here testify, it's even 
to me more important to have the wives testify. Because the 
impact some of these situations have had on the family are just 
outrageous, and we simply have to get this fixed. I screamed 
about it, literally screamed about it at a hearing a month ago, 
and maybe some of the problems are getting solved. I certainly 
hope they are.
    But if we don't, then we may have to have a hearing every 
other day. And if we have to go to Fort Knox to do it, then 
we're going to have to go to Fort Knox to do it. I don't want 
this young men and women hand picked, I want to be able to walk 
into a barracks and say, what's your situation. And for you to 
be on medical hold for 10 months now, and nobody's checking on 
you, something is wrong somewhere. And I think those are the 
questions we need to address to the Generals, the Admiral and 
the Secretary.
    Fit for duty is supposedly what it's all about. And the 
Army is required to provide annual medical screenings, annual 
dental screenings, selected dental treatment and a physical 
exam every 2 years for early deploying Reservists over age 40, 
and every 5 years for early deploying Reservists under age 40.
    To the gentleman, how often did you receive physical 
examination? First Sergeant?
    Sergeant Mosley. I work full time as a civilian for the 
Army Reserve now, sir, so we're a forward support protection 
package, we're required once we get 40 years old to have a 
physical exam every 2 years. And I scheduled a physical exam 
for the troops in my unit, so I had mine every 2 years, sir. I 
have a copy of the one that was done in May 2002, so that the 
only deficiency I had, sir, was a hearing loss, and that 
profile was downgraded so I could go.
    Mr. Schrock. Specialist Ramsey.
    Specialist Ramsey. Yes, sir. My last physical was in 2000. 
Any physical after that, I did not receive one. It was more of 
just a records check. My unit is a rapid deployable unit. We 
have the responsibility of deploying within 72 hours wherever 
for air defense. So on a year basis, actually every 6 months, 
we go and do what they call a MOB station, go through all the 
shots records and update all our medical files. But my last 
physical was in 2000.
    Mr. Schrock. Any dental at all?
    Specialist Ramsey. No, sir. The last--I was deployed in 
2001, the end of 2001 and when I reached Fort Bliss, where our 
command unit is housed, when I reached there they did a 
panoramic x-ray. That was the last one I had, was in 2001. I 
have not had any dental updates since then.
    Mr. Schrock. Sergeant Emde.
    Sergeant Emde. Like the First Sergeant, I am required to 
have an over 40 physical every 2 years. I recently went to Fort 
Eustis and had my physical done in May of last year. I had my 
dental things taken care of right about the same time.
    Mr. Schrock. Specialist McMichael.
    Specialist McMichael. Sir, my last physical was in November 
2000. I was in the IRR, inactive regular Reserve, from August 
2001 until a local unit pulled me out of the inactive regular 
Reserve and mobilized me February 27th of last year. My 
physicals are current and up to date.
    As for dental, I haven't had a panagraph or anything like 
that in probably 10 years. But I did have dental work done at 
Fort McCoy, which I have to praise their ability. They did 
good.
    Mr. Schrock. Specialist Ramsey, did you want to make a 
comment?
    Specialist Ramsey. Yes, I just wanted to add one thing. I 
was, because I stayed so close in contact with my Reserve unit 
in Orlando, FL, I was under the understanding that our annual 
physicals were coming up and I was on that list. But because I 
was currently on incap and not allowed to attend drills, 
because of not receiving retirement points, I was passed over 
for that particular physical, as well as my TB test. I received 
a TB test prior to leaving Kuwait, back to the States. I was 
supposed to get another one 6 months later for followup. I 
still have not received that.
    Mr. Schrock. First Sergeant, I know my time is up, but 
explain the pills, would you? What are they?
    Sergeant Mosley. There's probably 16 or 18 pills a day in 
there for Parkinson's disease, which my shaking is about 50 
percent of what it was 3 weeks ago. Pills in there, there's 
Neurontin for the backaches, there's Percoset, Vioxx, there's 
pills there for depression and PTSD.
    Mr. Schrock. Sounds like you're over-medicated to me.
    Sergeant Mosley. That's what my statement was. If I was to 
take every pill they told me to take here, sir, I wouldn't be 
waking up in the morning.
    Mr. Schrock. Mr. Chairman, I know my time is up, thank you 
for letting me have the time. As bad as the medical problems 
are, and they are, this financial problem, people's credit 
being affected, bills not being paid that are supposed to be 
paid, to me this is a horrible, horrible situation. And if a 
man or woman is trying to get better medically and they have 
all this burden on them, how in the dickens can they with all 
these medical bills?
    I think it's absolutely abhorrent that the military 
services aren't paying these bills and making sure these young 
men and women are paid. It's ridiculous. We need to get our 
hands around that and get around it real quick, or we're going 
to have some real bad problems with these folks, and nothing 
they created. Thank you.
    Mr. Shays. Thank you, Mr. Schrock.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I want to thank all 
the witnesses for their service and for the difficulty they've 
gone through, I regret that. There's nothing that you testified 
to that I'm unclear on. I think that all of you made very 
certain and very clear what the circumstances are, and I'm 
anxious to hear from the next panel as to what we're doing 
about that, and what we're going to do about it. But I would 
like to give any of you that feels you might not be asked a 
question you want to answer or something that you haven't yet 
had a chance to say, I'd like to give you the opportunity to do 
that, if there's anybody who feels that their opening statement 
wasn't adequate enough.
    Specialist Ramsey. I just wanted to add to what Mr. Schrock 
was bringing up, the financial issues. My wife and I also, as 
soon as I returned from active duty, we tried to refinance our 
house. We're at a 7 percent under the Soldiers and Sailors 
Relief Act, which I am not able to receive right now, because 
I'm no longer on active duty. My interest rate on my home is at 
7 percent. I had the opportunity to refinance at 5 and a 
quarter percent.
    Because I was late on my mortgage in November and December, 
never been late on my mortgage any other time before that, 
because I was late on that, that affected my credit to the 
point where they were, the mortgage company that I was looking 
at actually offered me a better rate of 7 and three quarter 
percent, and I'm at 7 and a quarter. So actually, they were 
going to offer me what they thought was a better rate, which 
actually was going up.
    Specialist McMichael. I do want to mention the medication 
again. We have some soldiers at Fort Knox who are so medicated 
they can't even get out of bed to make formation. I personally 
take 60 milligrams of MS Contin, which is a morphine 
derivative, every 12 hours. A member of legislative affairs 
made a comment to one of the clerks that work for you that she 
didn't feel I was going to be able to testify here, that I 
would not, as I understand it, be able to make a coherent 
thought to where I could talk to anybody.
    This is just the tip of the iceberg with medication. 
There's a Sergeant Major Abbotts at Fort Knox that would 
welcome the chance to speak to any one of the members of the 
committee, he's in the same boat, taking a ton of medicine. 
Soldiers that are diagnosed with post-traumatic stress 
disorder, they're basically medicating these guys out of this 
world. Some of them don't even know where they are.
    Mr. Tierney. Mr. Chairman, I don't know that the next panel 
is going to talk about anything other than process, how this 
works. But I would think there are two distinct issues. One Mr. 
Schrock brings up about the financial implications and what the 
military is actually doing, and the second is the medications 
and how they're being distributed and all that. So whether it 
requires further hearings or simply a followup by this 
committee in terms of aggressive oversight, those are at least 
two issues that I would like to recommend this committee look 
into in great detail.
    And I want to thank again all the witnesses for your 
testimony.
    Mr. Shays. Thank you. We actually are doing that in 
conjunction with the full committee, trying to make sure we 
spread that workload.
    Mr. Ruppersberger, you are entitled to go next, since you 
are full committee, but if you don't mind waiting for Mrs. 
Davis, we'll have her go next, if that's OK. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I do have a question, but I would like to say something to 
the Emdes and the Ramseys. In my prior life, before coming to 
Congress, I was a real estate broker. I can tell you, if you 
have 100 percent A plus credit everywhere but you're late 1 day 
on your mortgage, it will stop you from refinancing. So I can't 
help you, Mr. Ramsey, but Mr. and Mrs. Emde, if you will talk 
to my staff afterwards, we'll see if we can get a letter from 
the Services and see if we can't clear up your credit on your 
mortgage.
    The one thing I do want to ask each and every one of you, 
did any of you have a pre-existing condition that should have 
been caught before you were activated, or do you know of 
anybody that had a pre-existing condition in your unit? 
Particularly you, Sergeant Mosley. How long have you had 
Parkinson's?
    Sergeant Mosley. They just diagnosed me in March. I've been 
on my medicine 3 weeks. I had gone on my June 12, 2003 physical 
exam, I indicated stiffness in my joints, numbness in my arms 
and shakiness that I couldn't control. That was June 2003. It 
was only after my medical evaluation board was finished and I 
agreed if they sent me to a civilian neurologist to find out 
where my vertigo was from and the other problems, and they did 
the MRI and diagnosed me with the cervical spondylosis and the 
Parkinson's disease.
    Mrs. Davis. But you had the shaking in June 2003?
    Sergeant Mosley. When I came back, I had some minor 
shaking. I'm glad you didn't see me 2 weeks ago.
    Mrs. Davis. Did they do anything when you said you had the 
shaking?
    Sergeant Mosley. They kept telling me it was just nerves 
and the pain, like the pain in my back and my neck, they just 
kept saying it was pain, that's why I wasn't sleeping good, 
that's why I was having some of the dreams I was having, and 
side effects of medicine.
    You know, when you have a soldier go to a psychiatrist, and 
I'm not talking about me, but I know the soldier that did this, 
tell him how depressed he is and what his suicidal thoughts 
are, and he's threatened with malingering and UCMJ, he leaves 
and within about 3 weeks cuts his wrists. Soldiers are talking, 
like I say, but the folks there just aren't listening.
    Mrs. Davis. I'll be leaving for Iraq in 3 weeks. I look 
forward to seeing some of my Virginia Guard and Reserve there.
    Sergeant Mosley. Have you taken the anthrax shot, ma'am?
    Mrs. Davis. The anthrax shot? I live on a farm. I'm not 
worried about anthrax.
    Sergeant Mosley. I hear you.
    Specialist Ramsey. To answer your question, ma'am, no, I 
did not have any pre-existing. I was 100 percent healthy. The 
only condition that I had is, I had a hernia surgery, a 
bilateral repair on both sides in 2001. And I had some 
complications from it. That was the only issue. I was cleared 
for full duty prior to leaving. It was not interfering with my 
civilian job nor my military duties.
    Mrs. Davis. Did they do a full physical before you left?
    Specialist Ramsey. No, ma'am, they did not.
    Mrs. Davis. They just cleared you?
    Specialist Ramsey. They cleared me. They looked through my 
service record.
    Mrs. Davis. On your word?
    Specialist Ramsey. Yes, ma'am. They looked through my 
service record, they looked through the civilian doctor's notes 
from my surgery and then cleared me to go on.
    Mrs. Davis. Scott Emde.
    Sergeant Emde. I received a full physical prior to going 
overseas. I had no pre-existing medical conditions whatsoever.
    Mrs. Davis. Thank you, Scott. Specialist McMichael.
    Specialist McMichael. Prior to being deployed, actually in 
1992 I received knee surgery and was awarded a permanent 
profile because I could no longer run. It was P3, meaning I was 
non-deployable. During preliminary review with the 88th Reserve 
Support Command, a colonel took my P3 profile, downgraded it to 
a P2 so that I could be deployed. My P3 profile was actually 
awarded by a medical evaluation board.
    I had already been through medical board once before, was 
found fit for duty and retained at a permanent profile. That 
was the only thing wrong with me, it did not affect my ability. 
I actually wanted to go. What happened to me occurred at Fort 
McCoy while I was training and has nothing to do with my knees.
    I do know of soldiers at Fort Knox, Sergeant Major Abbots 
that I mentioned as well, he had neck surgery about 3 months 
before he was deployed. His civilian doctor had stated, he is 
not to be deployed. Well, they sent him to the desert, he came 
back and had to have surgery. There are other soldiers in the 
same boat.
    First Sergeant mentioned behavioral health and psychology. 
There's a soldier over here at Walter Reed right now that's a 
friend of mine that was at behavioral health. He had made a 
suicidal gesture earlier that week, was sent to behavioral 
health. The next day he slit his wrists. Behavioral health 
refused to help him. I know of other soldiers who have gone to 
behavior health and asked for drug or alcohol counseling, well, 
you're National Guard, no, you're not entitled to it. There's a 
Specialist Anderson, who's now Private Anderson because they 
refused to help him and he ended up getting two more DUIs.
    Myself, I have gone to behavioral health because I have 
family issues. And the psychologist, his main concern was how 
long I've been in medical hold, not with helping me. I've had 
appointments canceled with behavioral health and the soldiers--
that's why I mentioned Chaplain Norwood, because the soldiers 
at Fort Knox, the behavioral health doesn't care about them. 
They go outside to outside agencies, some have gone to the VA 
to find people to talk to.
    That's all I have to say.
    Mrs. Davis. I thank you all very much, and Mr. Chairman, 
thank you so much for allowing me to be a part of the hearing.
    Mr. Shays. We are delighted you are. And by the way, her 
offer to assist you in the issue of financing issues, take her 
up on it. I think it will be very helpful to you.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First, I'm sorry I was late. I have read 
the files and been briefed on your testimony. There's no 
question we have a serious issue. First thing, the issue 
generally of our military we have to deal with, because 
terrorism is, the war with terrorism is not going to stop, and 
we do need to move on and finish what we have started.
    However, the total force transformation, and I believe now 
that the use of National Guard and Reserve is more now than it 
was during World War II, so there are issues here, and that's 
the reason we're having this hearing. First, I want to thank 
you all for your service, and understand that you're going 
through a lot of difficulty and family issues. We're having 
this hearing, and I want to thank the chairman for having the 
hearing today, because we're trying to get to the issue to make 
it better.
    To begin with, Specialist Ramsey, could you, I want to get 
into the area of the difficulties in receiving adequate care 
you experienced. Do you believe they were caused by ineptitude 
of doctors, by the incompetence of file clerks, or by 
incompatible recordkeeping systems between the Reserve 
component and the active component?
    Specialist Ramsey. Yes, sir, that's correct. All the above.
    Mr. Ruppersberger. Could you explain a little bit what your 
analysis of those issues are?
    Specialist Ramsey. For example, in Fort Benning they have 
post-deployment checklists that you're required to check off 
from each station prior to leaving and being redeployed to your 
home residence. They have so many of them that the different 
sections, for example, finance, medical, what have you, 
personnel, they choose to check off whichever ones they want to 
check off. There's not one standard form there. It's easier for 
them to push us through and send us home than it is to do the 
extra paperwork or go through the extra log or chart and treat 
us for the injuries that were incurred while on active duty.
    Mr. Ruppersberger. OK. Sergeant Emde, first you noted that 
you made hundreds of phone calls to check on your payments, 
active duty status, medical appointments. How many phone calls 
have you made where you feel you got the service or response 
you were looking for, or do you feel you were just passed from 
one person to another, in a bureaucratic maze?
    Sergeant Emde. I would say probably roughly a quarter of 
them. A lot of the problems were people not being around when I 
needed to make an appointment or a lot of the problem for me 
anyway, since I was at Walter Reed and I was trying to get some 
of my care at a Naval facility, the computers didn't mesh. 
Therefore, their procedures or the Navy's way of doing things 
didn't quite mesh up with the way the Army did their thing. And 
their protocols, such as one I noted that the physicians at the 
Naval facility wanted to know why this doctor wanted an x-ray. 
To me, that's absurd, but that's the Navy's way. And had Walter 
Reed known about that, then that may have been----
    Mr. Ruppersberger. Was it because of a lack of control of 
one person that you could go to to coordinate this, did you see 
a lot of duplication of effort? What would you have recommended 
if you were a general that you could have done to fix your 
problem?
    Sergeant Emde. If there was perhaps a central person that 
took care of everything, that may have alleviated some of it. 
But other parts of it, there were two physicians I was seeing 
up at Walter Reed, one for neurology, one for my shoulder. When 
the doctor I had for my shoulder, when he went on vacation, 
when he got back, the neurologist left. So that was like 6 
weeks that I was unable to get any help whatsoever from that.
    Mr. Ruppersberger. Were these pre-existing conditions? I 
was not here for your testimony. Were these pre-existing 
conditions?
    Sergeant Emde. No, they were not. Prior to me being 
deployed?
    Mr. Ruppersberger. Yes.
    Sergeant Emde. No, sir.
    Mr. Ruppersberger. OK. Mrs. Emde, the issues that you were 
dealing with and the help and support, was the family support 
center at your husband's base, was there a family support 
center there?
    Mrs. Emde. There was no family support whatsoever. I 
received, he was actually under active orders for almost 2 
years. And during that 2 year period, I received one call from 
the Virginia National Guard basically to tell me about my 
commissary rights. That was it.
    Mr. Ruppersberger. Were you told there was going to be 
support?
    Mrs. Emde. Oh, yes. We were told there would be support, 
that if we had any questions, we could call this number. When 
we had pay glitches, I called numbers, didn't get anything.
    Mr. Ruppersberger. What happened when you called those 
numbers?
    Mrs. Emde. We were told that they could not handle it, it 
was an active duty issue.
    Mr. Ruppersberger. Was this the National Guard number you 
got?
    Mrs. Emde. Right. The National Guard could not help us.
    Mr. Ruppersberger. Then did you go----
    Mrs. Emde. He had been under active duty and we no longer 
fell under their umbrella. So they did not help us.
    Mr. Ruppersberger. Then what did you do? Did you go to the 
active, the career?
    Mrs. Emde. When he had the medical extension orders. We 
were told that there was only one person who could extend his 
orders, and this person was Bob Vail, and it took, during the 
four lapses, there were lapses of 2 weeks, 3 weeks, the longest 
that we personally experienced was 2 months.
    Mr. Ruppersberger. One last question. If you could have the 
authority to fix the problem, the frustrations you were going 
through, what would you have liked to have seen?
    Mrs. Emde. More administrative help in order to process----
    Mr. Ruppersberger. A special person to coordinate between 
National Guard and career, or do you feel----
    Sergeant Emde. From my understanding, the National Guard 
Bureau has one person that takes care of ADME orders. And I 
called up there, the process goes through my chain of command 
at Dove Street in Richmond, and then it goes straight to the 
National Guard Bureau. This man goes through, reviews 
everything and then it goes up to a colonel to get processed or 
get accepted. Then it's OKed, this colonel gives the authority 
to cut the orders, as I understand the process.
    I cannot see for the life of me how one person can review 
every single pay problem that is reviewed medically for the 
National Guard. It's just--but that's what I was told, and 
that's where the system bogged down.
    Mr. Ruppersberger. Thank you.
    Mr. Shays. I thank the gentleman. I'll proceed to now ask 
some questions.
    We basically had the active so-called component, the active 
force and the Reserve component, Reserve and National Guard. It 
is very clear to this committee that they are not equal in a 
whole host of ways. And they are not treated in the same way. 
And as my colleague just said, you all are expected to perform 
in the same way.
    We know that the health provisions for active are different 
than for those in the Reserve component. We know the pay has 
gotten all screwed up. That has to impact your health. When you 
are thinking you might lose your house and the frustration of 
thinking that you can lower your mortgage costs and then find 
out you can't, it would drive me crazy.
    We know that the training isn't equal, and we also know the 
equipment and protective gear is not equal. In Iraq, we had 
some of our Connecticut National Guard trying to get their 
Humvees to have the same basic armament that the others had. 
They had to do makeshift efforts, literally go into Iraqi 
garages to have steel plates put on.
    So we know that in this committee, looking at all these 
issues. Today we're looking pretty much at health, and 
obviously the pay is a factor. Sergeant Mosley, you were in 
Iraq, correct?
    Sergeant Mosley. Yes, sir.
    Mr. Shays. When were you in Iraq?
    Sergeant Mosley. Cross with the 3rd FSB and the 2nd and the 
7th on March 19th, sir.
    Mr. Shays. March 2003, right?
    Sergeant Mosley. Yes, sir, first day of the conflict.
    Mr. Shays. Specialist Ramsey, you were in Kuwait?
    Specialist Ramsey. Yes, sir, I was in Kuwait and Iraq. I 
was assigned directly to the commanding general of the 32nd 
Army Missile Defense.
    Mr. Shays. And you were there----
    Specialist Ramsey. I was in and out of Iraq anywhere from 
the late part of March all the way up to my last trip into 
Iraq, which I think was toward the end of May.
    Mr. Shays. And Sergeant Emde, you were Qatar, is that 
correct?
    Sergeant Emde. Yes, sir.
    Mr. Shays. When were you there?
    Sergeant Emde. I was there in the May and June timeframe of 
2002.
    Mr. Shays. It was our expectation that before you would be 
sent into a combat zone, that you would have gone through a 
very compressive physical. I want to know if that was done for 
you, and each of the three gentlemen I'd ask. Before you went.
    Sergeant Mosley. No, sir, Mr. Chairman, we did not.
    Specialist Ramsey. No, sir, no type of physical.
    Sergeant Emde. Yes, sir, we did.
    Mr. Shays. Thank you. When you got back from the battle 
zone, were you given any kind of general physical to determine 
how you might be different than the, well, actually they didn't 
see how you went in. But were you given a physical on the way 
home?
    Sergeant Mosley. I was, because I went through the medical 
evaluation board process, sir.
    Mr. Shays. Right.
    Sergeant Mosley. But when our unit came back on August 
22nd, they were told, my commander was told, you've got 3 days 
to completely de-MOB and be off of Fort Stewart, 156 soldiers 
they're going to try to----
    Mr. Shays. So they weren't all given physicals?
    Sergeant Mosley. No, sir, they were not.
    Mr. Shays. OK. Specialist Ramsey.
    Specialist Ramsey. No, sir, I was not given any type of 
physical. I reported to Fort Benning from Kuwait on the evening 
of, I believe the 11th or the 12th, Wednesday evening. Thursday 
morning we went and spent 2 hours doing out-processing, a few 
of the check points. On Friday, we went to medical and did the 
out-processing there, and then went to personnel and finished 
out-processing. At 4 a.m., on Saturday I was on an airplane 
heading for Florida. I spent between 3 and 5 minutes in the 
physician's assistant's office, a Lieutenant Mulener, who 
basically just fanned through my paperwork, said I had the 
appropriate documents to receive medical treatment at my home 
station and even wrote in there to receive medical treatment at 
home station. Then I was sent on my way.
    Mr. Shays. Thank you.
    Sergeant Emde. Yes, sir, as part of the out-processing 
system at Fort Bragg, all the National Guard Reservists that I 
saw there had complete physicals done.
    Mr. Shays. So you went in, you had a physical and when you 
got back you had a physical?
    Sergeant Emde. Yes, sir.
    Specialist McMichael. Sir, I need to make a statement about 
the physicals. I worked at Fort McCoy. While I was on medical 
hold, I was assigned to the SRC, which demobilized the 
soldiers. And physicals were actively discouraged. When a unit 
came to de-MOB, they were told, well, you can have a physical 
if you want. But you're going to be here another 2 weeks while 
your unit goes home. And soldiers would be briefly assigned to 
medical hold for about a week to 2 weeks while the results of 
the physical, blood tests and other whatever tests had to be 
done. And that's just for a basic physical that didn't find 
anything wrong. They actively discouraged the soldiers from 
requesting physicals.
    I believe it was the----
    Mr. Shays. You're speaking in your capacity as a nurse?
    Sergeant McMichael. No, my job was to do the DD-214s for 
soldiers when they came back. This was at Fort McCoy, WI, which 
was a mobilizationsite. I believe it was the commanding general 
of the Wisconsin National Guard actually went so far as to 
order all his National Guardsmen will receive a physical when 
they de-MOB. At McCoy, they actively discouraged it.
    My unit spent 4 months at Fort McCoy. They hired Iraqi 
civilians to do our job, my unit went home the first of June. I 
was still on med hold, I stayed. But they did that with my unit 
when they de-MOBed. They said, if you want a physical, fine, 
you can have it, but you're going to stay.
    Mr. Shays. I need to--sorry, Sergeant Emde, you're the 
nurse. Specialist McMichael, I need you to explain what medical 
hold for 10 months means.
    Specialist McMichael. When I was originally injured, I 
ruptured my abdominal wall. That was back in April. I was 
assigned to medical hold in May, right when my unit went to 
demobilize.
    Mr. Shays. Describe to me what medical hold means.
    Specialist McMichael. Medical hold means you're going to 
sit around, you're going to see the doctors when you have a 
doctor's appointment. The big thing----
    Mr. Shays. Does it mean that you perform active duty while 
you're on medical hold?
    Specialist McMichael. Right, you're on active duty. At Fort 
Knox, they try to find you jobs. You're supposed to have a job 
working in your military occupational specialty, your MOS. A 
lot of soldiers don't, because they're not able to perform 
their job with the restrictions they have on medical hold. Some 
people have lifting, different types of restriction. While 
you're on medical hold, you're still on active duty, you're 
still at whatever military base. In my case, I'm at Fort Knox, 
I'm in the barracks with about 150 other medical hold people.
    At McCoy, they have a medical hold, I'm not sure what the 
numbers were. Your job on medical hold is to go to your 
appointments and to get well. Some of the bases have--they want 
you to be gainfully employed, doing something----
    Mr. Shays. I understand that. And I'm sorry, I'm running 
over, and I'll let all the Members come back. So you're on 
medical hold, you are being given assignments, and you will be 
on medical hold for how much longer?
    Specialist McMichael. I'm scheduled to have surgery here at 
Walter Reed on the 16th. Fort Knox, it took 4 months to see the 
neurosurgeon here from Walter Reed. I'm going to have surgery 
to repair something that occurred to my neck.
    Mr. Shays. So when you have surgery, then what happens?
    Specialist McMichael. I'm being medically boarded as well, 
and I'm anticipating another 3 to 6 months in medical hold 
before I'm medically discharged.
    Mr. Shays. Let me just ask any of you here, do you believe 
what you are telling us is unique to you or systemic to the 
issue? In other words, that you are typical of others, there 
are many others like you, or do you think that you're unique 
and that my staff has just done a wonderful job of finding you?
    Sergeant Mosley. I would say we're very systemic, Mr. 
Chairman. I was on med hold for 10 months.
    Mr. Shays. So you're saying my staff didn't do a very good 
job here, right? [Laughter.]
    Sergeant Mosley. Oh, no, sir, I wouldn't say that. I'd say 
some of the Army folks would be guilty.
    Mr. Shays. The bottom line though is you believe you are 
more typical than unique. Would anyone disagree with that? I'll 
assume that if others don't comment that you consider yourself 
more typical of the problem rather than unique. That's the way 
we'll leave it unless someone wants to counteract that.
    Specialist Ramsey. Sir, I just want to add one thing to 
that. I think the reason that your staff found us is because 
there are very few people that will stand up and speak their 
mind and stand up against the Army.
    Mr. Shays. You know what? I think that's very true.
    Specialist Ramsey. And I'd just like to add one thing to 
what he was saying, what you were addressing about having an 
assignment or working while you're on active duty medical 
extension. Per Colonel Sherman, the G-1 who decides who does 
and who does not get active duty medical extension, in her e-
mails and in her phone conversations that I have taped, she has 
made it very clear that if you can perform your military job, 
you do not qualify for active duty medical extension. However, 
in the Army regulations it says, you must not be able to 
perform your normal military duties. She has interpreted on her 
own that my MOS, military job, is what it stands on.
    There's many soldiers out there that are still performing 
either their same MOSs or some type of an activity at a post as 
we speak.
    Mr. Shays. Mr. Ramsey, let me just be clear about this. You 
basically would like to be home with your family in your job 
working as a sheriff, correct?
    Specialist Ramsey. Yes, sir.
    Mr. Shays. If you do that, you then give up any hope of 
getting medical attention and have these significant bills paid 
for, is that correct?
    Specialist Ramsey. Sir, I cannot return to my civilian 
employer because of workers comp issues and health insurance 
issues. They will not accept me back until I am cleared by the 
military and by a physician. They've made that very clear. The 
military has even gone as far as calling them and asking them 
if they can put me on a light duty status, and they've made it 
very clear to them that they're not in the practice of taking 
up the slack for the military where they fall short in medical 
care for soldiers.
    Mr. Shays. OK. I'd like to welcome our ranking member to 
the committee. Nice to have you here, Mr. Kucinich. You have 
the floor.
    Mr. Kucinich. Thank you, Mr. Chairman. I have a statement 
that I would appreciate if the Chair would put into the record.
    Mr. Shays. We will put your statement into the record, and 
I thank you for that.
    Mr. Kucinich. And an accompanying letter with that 
statement.
    [The prepared statement of Hon. Dennis J. Kucinich and the 
accompanying letter follow:]

[GRAPHIC] [TIFF OMITTED] T5289.108

[GRAPHIC] [TIFF OMITTED] T5289.109

[GRAPHIC] [TIFF OMITTED] T5289.110

[GRAPHIC] [TIFF OMITTED] T5289.111

[GRAPHIC] [TIFF OMITTED] T5289.112

[GRAPHIC] [TIFF OMITTED] T5289.113

[GRAPHIC] [TIFF OMITTED] T5289.114

[GRAPHIC] [TIFF OMITTED] T5289.115

    Mr. Kucinich. As the Chair knows, and as the Chair has 
recognized over the past few years, many of us have expressed 
our concern about the treatment of our troops, about whether or 
not they were, they had proper equipment, whether their health 
care was sufficient, whether their pay and benefits were 
appropriate, and raised questions about morale. This hearing 
that you're having, Mr. Chairman, is very important, because it 
continues this committee's work and oversight in raising 
questions about just how well those who serve this country in 
the military are being provided for.
    I had the chance to look at Specialist McMichael's 
testimony. It was very telling in many areas. One area in 
particular I would just like to focus on, just for the purpose 
of a brief question, is the area where Specialist McMichael 
stated in his written statement that some soldiers may or have 
even attempted suicide because of the indifferent treatment 
they received. And this is an issue that many Members of 
Congress raised back in December. It's an issue that Specialist 
McMichael raised, not only with respect to Fort Knox but also 
with respect to Fort Bragg.
    So I guess I'd like Specialist McMichael to say for the 
record, do you believe this kind of mental stress and anguish, 
which is apparently resulting in suicide, is widespread from 
your experience?
    Specialist McMichael. Yes, sir. From what I've read in 
reports, it's not just Fort Bragg and Fort Knox, I understand 
there was a suicide at Fort Campbell as well as Fort Carson. It 
is widespread. The soldiers in medical hold at the different 
bases, the living conditions, the differences, well, you're 
National Guard, you're Reserve, create a level of frustration 
where they have no outlet. Some soldiers are flat out refusing 
treatment just to get out of there. They're taking the first 
amount that's offered to them by the medical boards to get away 
from it, just to get out of that situation.
    I personally in my position in the unit, a lot of soldiers 
come to me and a lot of them tell me their stories. That's why 
I was able to refer some of them to the chaplain. I actually 
had a soldier go AWOL, but I talked him into coming back, 
because he couldn't get in to see behavioral health. He told me 
that he had spent 3 to 4 months just waiting to see behavioral 
health.
    Soldiers have gone to behavioral health with problems, 
saying, I'm depressed, soldiers have admitted that they want to 
hurt themselves and they've been denied treatment. Soldiers 
have said, I have an alcohol problem. Well, you're National 
Guard, you're not allowed. Not that they're not allowed, they 
would not let them into the alcohol treatment problem.
    Mr. Kucinich. So you're saying that when soldiers have 
expressed a cry for help, they are ignored?
    Specialist McMichael. Repeatedly, sir. At one point in time 
I protested because we had E5s, which are sergeants, in charge 
of our building, because they aren't able to tell when a 
soldier is in crisis. That was my big issue, is that there were 
soldiers in crisis. They brought some in. We've got some 
platoon sergeants and squad leaders now that will sit there and 
talk to some of the soldiers.
    I'm sure that since Mark Benjamin brought all this to 
light, all the stuff that's going on with medical hold, there 
have been changes. I'm not saying things are totally 
deplorable. There has been some improvement. But soldiers, in 
the realm of mental health, it seems the policy is, well, 
here's medication. More and more the answer is, well, here's 
some medication, go take this, take that.
    Soldiers don't want medication. They want someone to talk 
to. They're going to outside agencies. They're going to the VA. 
They're going to churches off post to go find somebody to talk 
to, because they feel that they can't talk. Myself personally, 
I've had appointments canceled, doctor's not going to be there. 
The doctor was there on the one appointment. I went there that 
day. An active duty soldier had my appointment with the 
psychiatrist. I went there because I had issues that I wanted 
to discuss. They were only concerned with how long I'd been 
here, not helping me.
    And I'm just the tip of the iceberg. The soldiers at Fort 
Knox, go talk to them one on one. They'll tell you. Sergeant 
Major Abbots has post-traumatic stress disorder. The reason I 
use his name is because a lot of soldiers are afraid to talk 
and a lot of them asked me not to present my name to the 
committee. Sergeant Major Abbotts had told me, he and I have 
talked repeatedly and at great length. He gave me permission to 
use his name because he wants to talk to you guys.
    But a lot of soldiers have been denied mental health. And 
they feel they have nothing left.
    Mr. Kucinich. Mr. Chairman, one of the things that occurs 
in hearing Mr. McMichael and also in reading his testimony is 
that there appears to be a lack of appropriate attention paid 
to service personnel who are expressing a need for mental 
health care. And it would be interesting to have the committee 
staff maybe probe a little bit more deeply into this issue of 
how is it that we're starting to see what some describe as an 
increase in suicides. Are service personnel actually asking for 
help and they're being spurned, and therefore in their 
desperation, they take other alternatives that are deadly.
    Mr. Shays. If the gentleman will yield, you'll have an 
opportunity I think to kind of pursue that issue with the next 
panel. And we do thank again that panel for waiting.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. Let me just allow the two spouses to 
respond to this question, and then we're going to come back 
after the votes. We have two votes, a journal vote and a motion 
on PAY-GO. The question I would ask is, it's the general 
philosophy of the military to recruit the solder and retain the 
family. I'd like to know, Mrs. Ramsey and Mrs. Emde, are you 
feeling retained?
    Mrs. Ramsey. No. As Mrs. Emde stated, my husband has been 
in the Reserve for quite some time. When he went to deploy to 
Iraq, we did have a conference and we were promised a bunch of 
stuff. The family residence program was supposed to be there to 
help. They did have ceratin programs right at the time he was 
deploying. But after that, there was nothing else. There was no 
other kind of support. I never heard from his unit.
    Luckily, I did have a friend of ours that's also in the 
active Reserve that stayed back. He was not deployed, he was 
undeployable, that actually kept me up to date on a lot of 
things that were going on. I don't know if the family residence 
program took that as an assumption that I was being updated and 
I was informed of what was going on, but as far as the family 
residence program, it's non-existent.
    Mr. Shays. Would you like to see your husband leave the 
Reserve?
    Mrs. Ramsey. At this point, with everything we've been 
through, yes, sir.
    Mr. Shays. When I said Reserve, the National Guard. Your 
recommendation to your loved one is, let's get out?
    Mrs. Ramsey. At this point, with the hell the military has 
put us through for the last 9 months, yes, sir, absolutely.
    Mr. Shays. OK. We need honest answers. Mrs. Emde.
    Mrs. Emde. Well, I look at his age and I want him out.
    Mr. Shays. He looks young to me.
    Mrs. Emde. I know he doesn't like to hear that.
    I just worry about him. I want him around later on. But he 
is, I guess in May he re-ups, and he plans to re-up and stay 
in. So I'll support his decision.
    Mr. Shays. But that's in spite of your feelings, not 
because of them?
    Mrs. Emde. Right.
    Mr. Shays. I want to thank all of you. You've been 
wonderful witnesses. I'd like to thank the committee members as 
well. We have our second panel when we get back, I apologize to 
our second panel, we'll have some votes and then we'll come 
back. But thank you all very much. We appreciate each and every 
one of you. Thank you.
    We are in recess.
    [Recess.]
    Mr. Shays. The subcommittee will come to order.
    I want to welcome our second panel. Two will be testifying, 
but we will have more participants to respond to questions. We 
have Dr. William Winkenwerder, Assistant Secretary of Defense 
for Health Affairs, Department of Defense, who has come before 
our committee on a number of occasions and we appreciate that. 
He is accompanied by Lieutenant General George P. Taylor, Jr., 
Surgeon General, U.S. Air Force, Department of Defense, and 
Rear Admiral Brian Brannman, Deputy Chief, Fleet Operations 
Support, Bureau of Medicine and Surgery, U.S. Navy, Department 
of Defense, and Wayne Spruell, Principal Deputy Assistant 
Secretary of Defense, Reserve Affairs, Manpower and Personnel.
    And our second testimony will come from Lieutenant General 
James B. Peake, the Surgeon General, U.S. Army, Department of 
Defense.
    Gentlemen, as you know, we swear in our witnesses. If you 
would stand, please, and raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Note for the record, all of our 
witnesses have responded in the affirmative.
    Dr. Winkenwerder, you have the floor. Given the importance 
of your testimony and the importance that only two testify, 5 
minutes and another 5 minute rollover if you need it. That will 
be the same for you, General, as well.

   STATEMENTS OF WILLIAM WINKENWERDER, JR., M.D., ASSISTANT 
SECRETARY OF DEFENSE FOR HEALTH AFFAIRS, DEPARTMENT OF DEFENSE, 
 ACCOMPANIED BY LIEUTENANT GENERAL GEORGE P. TAYLOR, JR., THE 
    SURGEON GENERAL, U.S. AIR FORCE; REAR ADMIRAL BRIAN C. 
  BRANNMAN, DEPUTY CHIEF, FLEET OPERATIONS SUPPORT, BUREAU OF 
 MEDICINE AND SURGERY, U.S. NAVY, AND WAYNE SPRUELL, PRINCIPAL 
    DEPUTY ASSISTANT SECRETARY OF DEFENSE, RESERVE AFFAIRS, 
MANPOWER AND PERSONNEL; AND LIEUTENANT GENERAL JAMES B. PEAKE, 
                   SURGEON GENERAL, U.S. ARMY

    Dr. Winkenwerder. Thank you, Mr. Chairman. Mr. Chairman and 
members of this distinguished committee, thank you for the 
opportunity to be here today to discuss the Department of 
Defense's Force Health Protection programs and how they impact 
our Reserve component service members and their families.
    Today we have nearly 190,000 activated National Guard and 
Reserve service men and women, including those serving in 
Afghanistan and Iraq. We are firmly committed to protecting 
their health. Despite serving in some of the most austere and 
tough environments imaginable, today our disease and non-battle 
injury rates among deployed personnel are the lowest ever. The 
Services have improved medical screening to ensure forces are 
healthy, and they have enhanced theater surveillance, allowing 
commanders and medics to identify health hazards.
    I would just state flatly and emphatically that the lessons 
from the Gulf war have been learned and those lessons are being 
put into place today. The Services evaluate all members, pre- 
and post-deployment and permanent health records are 
maintained. There is some good news that we've learned as we've 
looked over all those records of post-deployment health 
assessments of Reservists returning, and that is that they 
themselves have reported to us that over 92 percent indicate 
that their health status upon return from deployment is either 
good, very good or excellent.
    Pre-deployment health assessments ensure that Guards and 
Reserve members are fit and healthy to carry out their duties. 
Improved pre-deployment screening in fact contributed to the 
backlog of activated Reservists who were waiting clearance to 
deploy who we heard from just earlier. The Army has worked to 
alleviate this backlog, and the number of troops in this status 
is steadily declining.
    I would note to you that of the roughly 4,000 plus service 
members that were in that status, Reservists in the November 
time period, roughly 3,000, actually a bit more than that, 
about 75 percent have been processed through. There still are 
some. We heard from one or two of them today. But considerable 
progress has been made.
    I'm also pleased with the good news that 97 percent of 
Reservists and Guardsmen who are reporting to mobilize are fit 
to deploy. In general, the Guardsmen and Reservists are fit and 
healthy.
    Post-deployment health assessments gather information to 
evaluate concerns that may be related to deployment. About 
127,000 Guardsmen and Reservists have had post-deployment 
health assessments done. Licensed medical providers determine 
the need for referrals for appropriate medical followup. I 
noted in the comments from the panel who just spoke about the 
importance of engagement with that licensed provider, and I 
would very much agree with that. This is not nor should it be a 
process for just moving people through. People need to be 
carefully examined and asked the appropriate questions.
    About 20 percent of Reservists, according to our data, 
require referrals. And this is a rate that's comparable to that 
for active duty. In January, the Department began a quality 
assurance program to monitor the Services' pre- and post-health 
assessment programs. This QA program monitors compliance with 
regard to completion of work and includes periodic visits to 
military bases to assess compliance with all the protocols.
    The Services continue to immunize troops from disease and 
agents that can be used as biological weapons, including 
anthrax to smallpox. To date we have vaccinated over 1 million 
Service members against anthrax, and more than 580,000 against 
smallpox. Both programs are built on safety and effectiveness 
and they are validated by outside experts.
    To support combat operations in Afghanistan and Iraq, 
medical care was provided far forward, available in most cases 
within minutes of injury. Over 98 percent of casualties who 
arrived at medical care survived their injuries. Over one-third 
were returned to duty within 72 hours. It's clear that far 
forward medical care, improved personal protection and solid 
procedures are saving lives, they're saving many lives, and 
that's good news.
    For those who are seriously ill or injured, we rapidly 
evacuate to definitive care, using intensive care teams to 
treat patients during transit. Specialized programs available 
at our larger medical centers, particularly Walter Reed and 
Bethesda Naval are in place, and Walter Reed has a world class 
amputee management program. I'm sure General Peake would be 
glad to talk more about that.
    Mental health is integral to overall health. And the 
Services have full mental health service programs for personnel 
at home and for deployed. Suicide prevention and stress 
management programs are supported by the leadership and 
tailored to the operation. In 2003, 24 soldiers deployed to 
Iraq and Kuwait committed suicide. That's a rate of about 17 
per 100,000, compared with an overall Army suicide rate of 
about 12.8 per 100,000. This rate is higher than normal, but it 
is, I should note, and it's very important to understand, it's 
actually below the age and gender adjusted rate for the 
civilian population. Above the normal Army average, that age 
and gender adjusted rate in the civilian population is about 21 
per 100,000.
    Of course, every suicide is a tragic loss, and the Army is 
significantly beefing up its effort and requiring suicide 
prevention training for all personnel in units now deploying. 
General Peake I'm sure will be glad to talk in more detail 
about this important matter.
    I want to commend the Army for its actions in performing a 
study that's never been performed before that I'm aware of in 
the history of warfare, looking at the mental health status of 
service members during conflict.
    Malaria remains a threat overseas. Along with other 
preventive measures, the Department uses chloroquine, 
doxycycline, primaquine and mefloquine for malaria prevention. 
While all are FDA approved, precautions for these medications 
must be followed. Investigations to date have not identified 
mefloquine, or Larium, as a cause in military suicides. The FDA 
last year cautioned that mefloquine should not be prescribed 
for persons with a history of depression. DOD follows FDA 
guidelines on the use of mefloquine. Our policy is that every 
service member who receives this medication also should receive 
information about possible adverse effects. I've also directed 
a study to assess the rate of adverse events associated with 
mefloquine as prescribed to the deployed service members.
    The Department has improved the transition of care for 
service members to the Veterans Administration. VA counselors 
today advise our seriously injured on benefits, disability 
ratings and how to file claims before the member is actually 
discharged from the hospital. We have implemented the first 
stage of the computerized medical record and we are pursuing 
full sharing of health information with the VA.
    While we are able to monitor the health status of active 
duty troops after deployment, we need to improve the visibility 
of health care obtained by deactivated Reserve component 
members. I recently assembled a task force to determine ways 
for us to better monitor the health status of Guardsmen and 
Reservists after their return to civilian life.
    TRICARE eligibility for up to 6 months; that Congress 
recently passed last year, following deactivation, and 
eligibility for service through the VA for up to 2 years 
provides an excellent way to capture information and followup 
medical concerns. Let me be clear. We aim to ensure that all 
returning Guardsmen and Reservists get the care that they need.
    Ensuring medical readiness of activated Reservists and 
providing health coverage for their families is one of our 
highest priorities. As we proceed, we must carefully review the 
need for permanent entitlements and benefits to Reservists who 
have not been activated. That's a topic that's been under 
discussion. And perhaps we believe the best way to do that is 
to look at the issue carefully through a demonstration program 
to test program feasibility and effectiveness.
    Let me just close by saying that I've been on the job now 
for 2\1/2\ years and I've had the opportunity to visit military 
medical units worldwide. I'm extremely proud of the men and 
women who serve in the military health system. They are 
courageous, dedicated, caring professionals. They are America's 
best and I'm proud to serve with them. Our Reservists and 
Guardsmen are doing a superb job. With your support, we will 
continue to offer world class health care to the men and women 
serving in our military.
    With that, I'd be glad to answer any questions.
    [The prepared statement of Dr. Winkenwerder follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.116
    
    [GRAPHIC] [TIFF OMITTED] T5289.117
    
    [GRAPHIC] [TIFF OMITTED] T5289.118
    
    [GRAPHIC] [TIFF OMITTED] T5289.119
    
    [GRAPHIC] [TIFF OMITTED] T5289.120
    
    [GRAPHIC] [TIFF OMITTED] T5289.121
    
    [GRAPHIC] [TIFF OMITTED] T5289.122
    
    [GRAPHIC] [TIFF OMITTED] T5289.123
    
    [GRAPHIC] [TIFF OMITTED] T5289.124
    
    [GRAPHIC] [TIFF OMITTED] T5289.125
    
    [GRAPHIC] [TIFF OMITTED] T5289.126
    
    [GRAPHIC] [TIFF OMITTED] T5289.127
    
    Mr. Shays. Thank you, Dr. Winkenwerder. General Peake.
    Lieutenant General Peake. Mr. Chairman, distinguished 
members of the committee, I am Lieutenant General James Peake, 
the Army Surgeon General, and I thank you for the opportunity 
to appear before you today.
    Mr. Chairman, I recall the day that you joined us in the 
Army Operations Center and heard all the areas of the operation 
and the extent of the current operations. At that time we were 
engaged in Afghanistan. And I remember what you said, your 
comment that from what you saw that day, the story of Army 
contributions was not really widely known.
    I believe in that same vein there is much to tell about 
military medicine and the positive things that have been done, 
particularly as it relates to our Reservists who play such an 
important role in the total force readiness. In the Army, we 
have a selective Reserve of about 213,000 and a National Guard 
of about 377,000. And we've mobilized from Noble Eagle, 
Enduring Freedom through Iraqi Freedom some 240,000 of them. 
They are important as a group and as individuals, and we care 
about them.
    Reserve medical readiness has been and is an issue from 
dental readiness to medical screening. Following Desert Shield 
and Storm and well before September 11, there has been 
increasing attention paid to this issue. The Army from 1995 to 
now has invested nearly $.4 billion in National Guard and USAR 
medical and dental screening. Since 1999, this has been more 
programmatically funded, as the FEDS-Heal program expanded 
access to USAR soldiers. Before that it was mostly Guard and it 
was all targeted at the early deployers. At least 120,000 USAR 
soldiers have been touched by that program, and an even larger 
proportion of dollars were used for the Guard over a longer 
period of time.
    The current emphasis from Lieutenant General Helmly and 
Lieutenant General Schultz is apparent in the numbers, 34,000 
dental exams in 2003 and already in 2004 we have had 32,000 
plus dental exams done. And it is apparent as fewer soldiers 
are arriving at our MOB stations in a non-deployable status.
    On the front end of dental readiness, we have piloted a 
program that we want to expand to all of our advanced 
individual training sites, bringing all soldiers, active and 
Reserve, up to deployable status before they return to their 
first unit active or Reserve. We believe that this not only is 
good for deployability, but it sets the right culture in terms 
of dental wellness being an important contributor to readiness. 
And Lieutenant General Dennis Cavin, our war fighter trainer, 
has carved out the time out of the training time to be able to 
do this kind of general readiness.
    To get accountability built into the system, the 
measurements of the individual medical readiness that we are 
promulgating as a military health standard is a real step 
forward and will give commanders and we medics the tools to 
ensure that both our active and our Reserves have the right 
medical status for deployment or a plan to fix it on a real 
time basis.
    The pre- and post-deployment medical screening is being 
done and recorded. This is not a passive screening as it has 
been wrongly, I think, described in the press, but rather it is 
a process that includes filing out a form for self reporting 
for sure, self reporting your status and concerns. And this is 
followed by a face to face review of that self report tool with 
a provider who explores any issue, create a followup plan and 
further evaluations, laboratory work or consultations as might 
be indicated.
    Further, as you know, a serum sample is placed in our serum 
repository with approximately 30 million samples on record. 
Yes, GAO did take a look at this some time ago when we were in 
the Balkans, and we did not do very well with compliance. We 
have made a concerted effort to do this better. The key is 
getting information into the central data bank. We initiated 
electronic records for this process in Kuwait. Nearly 100 
percent now are transmitted overnight to our data base from 
Kuwait. Nearly 50 percent are coming electronically out of 
Iraq, and even in that really more austere environment.
    The GAO team has just completed their first visit with us, 
a visit to Fort Lewis. They reviewed 194 records of soldiers 
deployed to OIF from Fort Lewis from June to November 2003. 
Pre-deployment surveys were located on 100 percent of these; 
255 of soldiers who returned to Fort Lewis from OIF from June 
to November 2003 were reviewed. Post-deployment surveys were 
located for 100 percent of these. A smaller percent of this 
group did not have a pre-deployment, about 60 percent did.
    Documentation of required immunizations was also audited. 
The assessment of my officer on the ground that was there with 
them said, I think the GAO team left with a very favorable 
impression of the results of increased emphasis on this 
program. I look forward to the rest of their visits to our 
installations.
    I want to give you a flavor of why I believe we are doing 
better. And it's not just pronouncements from Washington. It is 
the quality of our people in the field. Their enthusiasm for 
doing what is right in an area which, however important, might 
sometimes seem mundane.
    This note was forwarded to me. ``I have attached the model 
we use for our reintegration process. We have made several 
adjustments, to include adding the tobacco cessation program, 
clinical practice guideline to one station and going all 
electronic by pre-loading the 2796 the night before. Almost all 
the ideas for improvement are coming from my soldiers who see 
something that could be done better. I have a great group, sir, 
Jim Montgomery produced the model, Kathy McCroary is the 
mastermind behind the setup, Sergeant Stanton is the data 
quality person. She has a team that loads 100 percent of the 
data every night.
    Tamara Baccinelli, civilian, codes every post-deployment 
encounter by 1400 hours daily. The soldiers are pre-screening 
MEDPROS and filling out the checklist to ensure that every 
soldier receives the immunizations they need. The stress 
management team sees every returning warrior also. They produce 
a list of soldiers daily that they have concerns about, and we 
see them that same day. During the reintegration, ortho and 
physical therapy are available for the soldiers, and they like 
that. We are doing all of this and maintaining a walk-in clinic 
for the community. To date, I can think of only one patient 
that we have sent downtown because of the reintegration 
process.
    The community has been great, they know what is going on 
and they are waiting a little longer to be seen and doing it 
gladly. The Red Cross has dressed up my lobby so it looks like 
a World War II welcome home canteen. The soldiers love it, they 
sit, talk and eat for hours. Personally, I've never enjoyed 
myself more.''
    How can we be better? We really need to move forward on the 
clinical, the CHCS II, our computerized patient record, a joint 
system that will be promulgated across all three Services over 
the next 30 months. It offers structured notes, a longitudinal, 
queriable patient record. It takes investment to keep that kind 
of a program moving.
    We get better because we look at ourselves critically, and 
we want to know our faults, so we look and we listen and we 
will listen to the panel before us and track those down. But 
when we find them, we fix them.
    It is why we proactively have sent teams into the combat 
zone to look at pneumonia, to look at leishmaniasis, to look at 
the status of mental health. It is why we have aggressively 
used environmental surveillance teams to go into theater to 
sample soil and air and water, asses risk, mitigate it where 
found, and importantly, archive that information at our Center 
for Health Promotion and Preventive Medicine so we can go back 
should questions arise in the future and answer with more than 
just conjecture.
    We are good, and we get better because of our great people, 
like this officer who volunteered to come back and serve with 
the Reserve, who writes: I am with the 1967th Eye Surgery Team 
in Baghdad. We are attached to the 31st Combat Support Hospital 
here in the Green Zone. Although my role is rather minor, I am 
delighted to be here. I find it interesting as an older fellow 
to observe the young soldiers in the theater. I feel so proud 
of them. They have such a difficult job, but go about it in a 
very positive fashion.
    I saw a young Marine lieutenant a couple of days ago in the 
emergency room who had a rather severe arm injury along with 
some minor facial trauma. I doubt that he will ever serve 
again. He had to have been in a great deal of pain, but his 
only question was, ``When do I go back to my Marines?'' I think 
this attitude is the norm here.
    The 31st has an extremely impressive staff and I greatly 
enjoy working with them. I think the service they provide is 
truly superb in every respect. I would hypothesize that the 
emergency care provided here is as good or better than any 
trauma center in the United States. If I were wounded, I would 
be very comfortable being treated here.''
    We are good because of people like that, and because of our 
young soldiers on the front line, soldiers like Specialist 
Billie Grimes, a 26 year old female Reservist with a bachelors 
degree, a Reserve medic who joined the active force to serve in 
Iraq and who is the middle person on this Time Magazine cover.
    I thank you, Mr. Chairman and this committee, for your 
support of these men and women and the thousands more like them 
across our military, and I look forward to answering your 
questions.
    [The prepared statement of General Peake follows:]

    [GRAPHIC] [TIFF OMITTED] T5289.128
    
    [GRAPHIC] [TIFF OMITTED] T5289.129
    
    [GRAPHIC] [TIFF OMITTED] T5289.130
    
    [GRAPHIC] [TIFF OMITTED] T5289.131
    
    [GRAPHIC] [TIFF OMITTED] T5289.132
    
    [GRAPHIC] [TIFF OMITTED] T5289.133
    
    [GRAPHIC] [TIFF OMITTED] T5289.134
    
    [GRAPHIC] [TIFF OMITTED] T5289.135
    
    [GRAPHIC] [TIFF OMITTED] T5289.136
    
    Mr. Schrock [assuming Chair]. Thank you, General Peake and 
Admiral and General Taylor, Mr. Spruell, thank you all for 
being here as well.
    I can't imagine the men and ladies who spoke earlier are 
the exception rather than the rule. I hope they're the 
exception, but I gather they may not be. How do we know that we 
are truly deploying fit people to the battlefield if we're not 
doing physicals on them? It seems to me there are a lot of 
people slipping through the cracks that might have been 
screened and pulled out before they went into battle. Is that 
the exception or is that the rule?
    Dr. Winkenwerder. Let me speak first on that. I think we 
know because I believe that we have a process that does 
identify individuals' health status before they deploy. I don't 
think there is any hesitation on the part of people managing 
that process or the individual medical providers who see the 
service member across the examining table to pull that person 
out if he or she has a deployment limiting condition or doesn't 
have the appropriate physical status to ensure that they can 
safely deploy.
    We have, as I said, about 3 percent to date through that 
first 30 days from the Reservist community, after they are 
called up and mobilized, that we determine now are not 
medically fit. We don't have the precise similar comparative 
statistic for active duty, because it's a more regular, ongoing 
care situation. However, I would say that we don't really have 
any indicators to suggest that we're not appropriately picking 
up and screening these individuals. I think there's a high 
level of confidence that people that are deploying are fit and 
healthy to deploy and those that are being held back are being 
held back for the right reasons.
    Let me also add, I think there is an important change that 
we've initiated in the overall medical readiness approach 
within the military. And that is that the services are moving 
to begin, I think with the Air Force and the Army and Navy are 
coming on with that, to have an annual, an annual, once a year 
health assessment, where the individual sits down and goes 
through a checklist and gets assessed. That's a change for us. 
We believe with that process being implemented the need for a 
complete physical exam prior to deployment just doesn't make 
sense.
    Mr. Schrock. Before we go further, General Taylor, I 
understand you have a flight at 1:30. So don't hesitate, don't 
miss the plane. I've been on a plane and it's murder getting 
out of airports.
    Lieutenant General Taylor. Yes, sir, I think they'll wait 
for me, though.
    Mr. Schrock. Oh, it's an Air Force plane. Oh. [Laughter.]
    I didn't realize that. I thought it was a commercial plane. 
In that case, we'll expect you here the rest of the day, right? 
[Laughter.]
    General Peake, did you have a comment?
    Lieutenant General Peake. Yes, sir. Actually, if you think 
through that previous panel, there was screening for all of 
them. The gentleman who was on the far left, I believe his 
name, he came out of the IRR, that's a different issue. They're 
not part of the SELRES and so forth, and had, as he described, 
multiple sequential problems. The First Sergeant described 
having every 2 year physical examinations, which sort of 
suggests that maybe that's not necessarily the appropriate 
standard.
    As a physician, I can tell you, the most important thing is 
a quality history. That's what our process tries to get at, is 
getting a good history that points then in the direction so we 
can do the appropriate interventions, whether they're 
diagnostic interventions or therapeutic interventions or 
laboratory tests or whatever. So what we want to do is, we 
don't want people in theater that are not medically ready to be 
there. It just puts a logistical burden and a burden on the 
unit to do that.
    Mr. Schrock. Sergeant Mosley said that he had, I think he 
said he had physicals every 2 years. You think it should be 
more than that?
    Lieutenant General Peake. No, sir, I don't.
    Mr. Schrock. I thought you just said that.
    Lieutenant General Peake. I'm just saying, the point is, he 
did have those physicals every 2 years.
    Mr. Schrock. So there is a record.
    Lieutenant General Peake. Yes, sir. And if you listen to 
Specialist Ramsey, he had his physical, I think he said in 
2000. That's within the 5-year time. So we had that. And he did 
not have a problem before he went over.
    So they're really kind of different pieces that we heard 
about over here that didn't necessarily say we weren't doing an 
appropriate job totally of screening folks going in. I think 
there's a lot of attention being paid to that, sir.
    Mr. Schrock. And don't get me wrong, I think you're doing a 
good job, and I know you're trying to put this many people 
through this big a pipe at one time, and I know it's very 
difficult to do that.
    Lieutenant General Peake. If I could just followup, one of 
the things that we stumbled on and frankly, it occurred in 
November when we went down and looked at Fort Stewart, as we 
were prompted to do. We had a policy that if somebody came on 
and they were non-deployable, we kept them. Now with that 25 
day rule, it allows us to do a look, and so those 3 percent or 
3.3 percent or so are going back home, because they were non-
deployable. And now what we're doing is following through with 
their units to make sure that they don't just go back into the 
black hole, but in fact there is followup through their chain 
of command.
    Mr. Schrock. I have several more questions, but I see my 
initial time is up. I yield to Mr. Tierney.
    Mr. Tierney. I was just curious if anybody on this panel 
can solve for us the dilemma that some of the first panel 
testifiers had in terms of getting their medical bills paid. 
What's the process that we have to deal with an issue where 
there are mounting medical bills and their credit is being 
affected and yet they can't seem to get those issues resolved?
    Dr. Winkenwerder. Let me comment on that, Congressman. I 
heard the individual story. I actually spoke with Specialist 
Ramsey and his wife in between sessions. I for the life of me 
could not understand why there was so much difficulty to do 
what was obviously the right thing. And so it was disturbing to 
me to hear his comments.
    What he had indicated in that conversation was that it 
seemed to be some debate about who should pay the bill. It's 
totally inappropriate. This is an issue where if the injuries 
take place, they take place as a result of active duty or while 
on active duty, no questions should be asked.
    Mr. Tierney. So we have a process that currently exists 
that should have resolved this, is what you're saying?
    Dr. Winkenwerder. Should have, but obviously didn't.
    Mr. Tierney. Without putting too much of a burden on you, 
are you now going to take personal responsibility for Mr. 
Ramsey's situation or designate it to somebody who might help 
him out?
    Dr. Winkenwerder. I think someone will be looking, I will 
ensure that someone looks into it and resolves it. I couldn't 
understand from what was described to me, if the facts were as 
he presented them, why the bills still wouldn't have been paid.
    Mr. Tierney. What normally would happen? He would submit 
the bills or the provider would submit the bills to the 
military and they would just get paid?
    Dr. Winkenwerder. In this case, it sounded like there may 
have been some discussion or debate as to whether it was the 
Guard unit or whether it was the active unit that was going to 
pay for it. That was the description. Who knows if that was the 
case or not.
    But if that was true, that's not appropriate.
    Mr. Tierney. There's got to be a way to stop that from 
happening over and over.
    Dr. Winkenwerder. No question should be asked about that.
    Mr. Tierney. Thank you.
    Lieutenant General Peake. I'd just like to comment on that, 
in fact, it is legitimate to ask a question, because if it is, 
and I'm not, in fact, on March 23rd there were PGBA, which is 
our bill payor, was, bills were forwarded to pay for Specialist 
Ramsey $7,600 for the left shoulder, $6,300 for the right 
shoulder. So that is in the process as of the 23rd. But the 
point is, it's appropriate to ask the question, sir.
    Mr. Tierney. I don't have any problem with the question 
being asked, sir, it's resolving it in quick enough time that 
their financial situation doesn't become critical.
    Lieutenant General Peake. I agree with you.
    Mr. Tierney. We all expect it to get paid out of the proper 
account, but hopefully we have a process where that moves 
expeditiously, so that the individual soldier doesn't end up 
having his family and himself have that kind of additional 
burden, that's all.
    Lieutenant General Peake. Sir, I couldn't agree with you 
more.
    Mr. Tierney. Is there anybody on this panel that can 
address for me what we do in terms of oversight on medical 
prescriptions? What is the process for making sure that our 
providers within the Service are in fact issuing the right 
amounts of medication and who oversees that, what kinds of 
reviews are done to assure that they're not being overmedicated 
or given the wrong medications?
    Dr. Winkenwerder. Let me turn to General Peake, General 
Taylor and Admiral Brannman on that.
    Lieutenant General Peake. Sir, we have a very good system 
of quality assurance within the military. I do appreciate the 
sense that some people feel like that are, it may have an 
appearance of overmedication. One of the issues about mental 
health in this country is, many of the people that suffer from 
depression don't get the medicines that they need, they don't 
get medicated for it. So you know, what we have are 
credentialed, qualified providers that are taking care of folks 
and prescribing the appropriate medications. Sometimes you're 
on a regime of medicines that may seem like a lot, but we're 
trying to work out the appropriate combination.
    Mr. Tierney. I don't mean to interrupt you, but this isn't 
unique to the military, so I don't ask this in terms of saying 
like, oh, gee, the military is making mistakes that regular 
hospitals don't. But I do think it's an issue that happens in 
almost all medical settings, and I see complaints from medical 
professionals, from the doctors, from nurses and from patients 
that there probably in all medical settings might not be enough 
of a holistic approach, someone watching what the total 
prescriptive scenario is.
    Lieutenant General Peake. Right, sir, and we have actually 
a program, PDTS, which has actually won some awards that allows 
us to look across and find out what all the medications, even 
if they are coming from disparate providers. So in some ways, 
we're a step ahead of some other organizations that can do 
that.
    But it is an issue that, the other thing we're trying to do 
with TRICARE actually is to get a primary care provider for 
folks to allow those kinds of disparate things to come together 
and say, well, are we doing the right thing from a more 
holistic picture. And it's one of the advantages of having a 
primary care provider.
    Mr. Tierney. I suspect we might have another hearing or 
two, as the chairman indicated, about that process, and perhaps 
even the program that you're talking about, to see how it's 
working and whether we can be helpful in it having it work a 
little more effectively or take individual scenarios. Some of 
it we heard. When the Sergeant lifted up the bag of pills, even 
as a lay person, I thought that was a little over the top. But 
I've seen that in other settings, not just military settings.
    Dr. Winkenwerder. Yes, sir.
    Mr. Tierney. So I think we probably need to have hearings, 
it probably can't be resolved here today, but we'll have to 
followup on that and see what's going on there.
    I yield back my time. Thank you.
    Mr. Schrock. Thank you, Mr. Tierney. Chairman Shays.
    Mr. Shays. Dr. Winkenwerder, I believe that there has been 
progress that's been made and I also believe that obviously you 
can't be held accountable for the failure to have equal 
treatment as it relates to pay and training and equipment and 
protective gear. Tell me your biggest challenge, though, as it 
relates to health care being provided on an equal basis for our 
Reserve components. What are your biggest challenges?
    Dr. Winkenwerder. Thank you, that's a great question, 
Congressman. From my perspective, we need to do and are working 
very hard to do the following. To make it easy for Reservists 
and Guardsmen and their families to get onto the TRICARE 
benefit. That's sort of No. 1.
    Second, we want to make it easy and understandable for them 
to continue their benefit for the period after active service 
while they are still eligible. And then----
    Mr. Shays. Define while they are still eligible. What does 
that mean?
    Dr. Winkenwerder. Well, under the temporary provisions that 
the Congress passed last fall, there's a continuation of 
benefits that goes for 6 months. And those activated Reservists 
and Guardsmen continue to be eligible for TRICARE for 6 months 
after their active duty period. And that should help ensure 
that there's coverage for needed medical care, that along with 
the fact that they're eligible for VA as well.
    So that's two things. And the third I think is ensuring the 
movement, appropriate movement of accurate medical information 
throughout the system. So we're working real hard, and part of 
the charge that I gave to the task force that I described is to 
develop, and it's already been developed by the Army, a data 
base that captures the pre-deployment health information that's 
in-theater and the post-deployment information all in a data 
base, so that, and then to be able to transfer that data to the 
Reserve or Guard unit or to the VA hospital.
    Mr. Shays. What is the deadline of the task force?
    Dr. Winkenwerder. I am looking for their report, for their 
initial report here within the next couple of weeks. They've 
been at it for about 4 weeks. We're both looking at the process 
for followup care and ensuring that people understand their 
benefits and can get the care that they need, as well as the 
medical informatics piece of this. So both pieces are 
important.
    Mr. Shays. What's challenging for someone who's a Reservist 
or a National Guard is that they may be living at a higher 
level of pay than they're going to receive once they've been 
activated. Their mortgage may be higher than their actual pay, 
and, and, and. That's the reality that we don't really have a 
good resolution of.
    But the one area that it seems to me is like a no-brainer, 
I was looking at Ed Schrock and thinking, he served in the 
military and the frustration I think he felt, I feel it 
differently, not having served in the military but knowing that 
I sent them overseas. I'm not clear why someone has to come to 
a Member of Congress or go to the media before somebody, and I 
don't want to say some idiot, because it strikes me that you 
would have to feel extraordinarily frustrated that they would 
allow it to get to that point.
    Is there no one in the system that can kind of break 
through the bureaucracy? Are people not empowered to see 
something happening that needs to be dealt with? That's the 
question I'd like answered.
    Dr. Winkenwerder. You're correct in identifying my 
frustration with eliminating, totally eliminating the 
individual cases of this sort that we heard about this morning. 
I believe we're making great progress, I really do. And we have 
given it very high attention. I receive a report weekly, 
generated by each of the three Services, that identifies every 
single individual going through this medical hold over and 
medical extension process. That was not in place earlier.
    I think it's fair to say there was not the focus or 
attention that there needed to be if one looks back 12 months 
ago. I think the way I would describe this is that the system 
that was in place basically was something that, if it had 
problems, they were not blatantly obvious because 15,000 or 
20,000 or 25,000 Guardsmen and Reservists were about all that 
were being called up in the past years.
    We are obviously in a very different situation today. So 
the system was stressed, we had to identify new and better ways 
to take care of people. One could argue that those should have 
been in place all along. But make no mistake about it, we 
understand, we appreciate that there are truly some issues that 
need to be addressed, and we're aggressively addressing them.
    Mr. Shays. Let me say, I made an assumption, falsely, 
General Peake, that if you wanted to elaborate you would join 
in on this dialog. So I apologize for not making that clear. Is 
there any question that I have asked that you want to comment 
on?
    Lieutenant General Peake. I would just, I think I would 
just echo the Secretary, we take this very seriously. There's 
not a single one of us that wanted to sit back and hear the 
kind of specific issues that we heard from the first panel. But 
I don't, I would not suggest that I believe those represent 
really the majority. They are issues that we need to address. 
Some of them were administrative, some of them were medical. 
And we clearly have our, there's an overlap in those, and we 
will work those issues that we heard here.
    But I think we are making the right strides forward to take 
care of our soldiers, to recognize that they are an important 
part, an absolutely essential part of the total force. There is 
this notion that sometimes there's a perception that we treat a 
Reservist differently. In fact, Reservists have sometimes 
different circumstances that require to take care of them 
properly we need to treat them differently. In fact, our 
standards of access, we have increased them so that we don't 
keep people at a medical hold site at a longer time.
    Mr. Shays. Well, for me the bottom line is the Reservists 
and National Guard sometimes don't have, I don't want to say 
hand me down equipment, but I kind of had the sense like, I was 
the younger brother, I had three older brothers, I got their 
clothes. And I think they do get that. It didn't matter as much 
when we weren't calling as many because they could get new 
equipment. It matters a lot more now that they're an integral 
part of whatever we do when we go into battle now. I mean, in 
other words, there are slots that can't be filled by anybody by 
the Reservists and National Guard.
    Let me just ask to hear from both the Navy and the Air 
Force, I'm gathering, General Peake, that we asked you to 
testify because we're seeing more of the Reserve and National 
Guard in the military, the Army is so much larger. But maybe we 
should hear from the Navy and Air Force about their challenge. 
Why don't we start with the Navy, only because my brother was 
in the Navy, sir.
    Admiral Brannman. I think all of us, throughout our service 
careers, strive to assure there's a total force, or one force. 
You can't tell us apart. In the deployments I've been on, 
particularly most recently, several years ago I was in a joint 
forces command, we're all wearing camis, you can't tell other 
than looking at the name tape whether it's a sailor, airman, 
marine, soldier, active or reserve. I think that's a situation 
you're going to find on the front lines today in the Persian 
Gulf, in Iraq or in Afghanistan.
    And that's truly the way we endeavor to treat our folks 
when they're on board in our treatment facilities. This is a 
family business. That's the way--I grew up in a Navy family, 
but that's, we're taking care of our neighbors, we're taking 
care of the people we work with day to day. So there is a 
commitment to those people that we serve to take care of them 
the right way. We hold ourselves to the same standards that are 
being held in your own community. We use the same accreditation 
organizations and we beat their standards if you look at our 
scores on various things.
    The issues that were described here are not the things that 
you want to have happen in my hospitals or anybody's 
facilities. You search those things out and you try and find 
out why they're occurring and take care of them. But this is a 
new ball game we're in right now in terms of the large number 
of folks we've got, and with the Reserves being mobilized and 
integrating them into the system, I think there have been some 
growing pains, but I think there's a strong commitment amongst 
all of us to make sure these things are identified, you shine 
the light of day on them, get them fixed and get on with it.
    Mr. Shays. I have a red light, and the chairman will 
probably want to move on, but let me just hear from you, 
General Taylor, if that's all right, Mr. Chairman.
    Lieutenant General Taylor. Yes, sir. The Air Force has a 
long experience in dealing with total force from the Persian 
Gulf war forward. A large portion of our mobility forces, most 
of our air medical evacuation comes out of the Guard and 
Reserves. And over the past 15 years, it's very common to see 
units that look blended. In fact, we're sending out blended 
units today with Guard and Reserve.
    So we're very used to folks coming on active duty and then 
off active duty, primarily through volunteer status. But we've 
also activated folks. So we're pretty used to folks coming on 
and off. And we knew fairly early that we had to run as smooth 
a system as possible.
    So based on that experience, the Assistant Secretary of the 
Air Force for Manpower and Reserves set up a very fixed process 
of ensuring that we timely took care of people that were on 
hold, placed on medical hold, either coming in or going out. He 
personally approves every single extension on hold. So we've 
had a very strong process even from very early in the entire--
--
    Mr. Shays. And you can do that because your numbers are 
smaller or because you haven't encountered the same kind of 
challenges?
    Lieutenant General Taylor. I think because we smooth flow 
the call-up, the call-up is more smooth flowed over time. 
Because we do 90 day rotations or 180 day rotations and we 
haven't had to do very long periods of time. We also haven't 
had the volume, very clearly, that the Army has called for, so 
we're able to handle this.
    Finally, our greatest worry has been, the Congress has set 
up a very wonderful benefit, medical benefit for folks when 
they're activated through the TRICARE system and the military 
health care system. Our greatest nightmare has been that the 
families wouldn't understand what this benefit was. So we've 
worked very hard, the Guard and Reserves have worked very hard 
to ensure that locally, benefits advisors were in place to make 
sure the families knew what these benefits were and how to take 
care of them if issues arose.
    Mr. Shays. Thank you. Thank you, Mr. Chairman. Thank you, 
Mr. Ruppersberger.
    Mr. Schrock. Thank you, Mr. Chairman.
    Before I recognize Mr. Ruppersberger, let me make a comment 
that the Admiral made. He said we're in a whole new ball game, 
and we are. But I think we knew what the ball game was going to 
look like, and I just can't imagine why some of these things 
couldn't have been foreseen. That's something I still haven't 
worked out in my mind. When I heard Mr. Emde say that he 
started out in Fort Eustis in Virginia, which is Army, and got 
transferred to Langley, which is Air Force, then across the bay 
to Portsmouth Naval, which is Navy, Navy couldn't do something 
or other because the paperwork wasn't filled out correctly.
    And I don't blame Navy for that at all, and you were 
talking to me earlier about this, Admiral. There is some system 
going into place where everybody's kind of talking about the 
level playing field, the same sheet of music. How quick is that 
going to be put in place?
    Admiral Brannman. I think as we speak, right now. The 
difficulty between Walter Reed and Portsmouth is that they're 
not in the same region right now. But within the Portsmouth, 
Fort Eustis, Langley Air Force Base area, they basically try to 
function as one organization, as one health care system across 
the board. We are, as each day passes, basically expanding that 
network. We are pushing, as technology will allow us, we are 
pushing that network out.
    The most recent change now is going from a large number of 
regions down to three, which were all the east coast, all the 
southeast, all the western areas, and interlocking our systems. 
Basically, if you're getting health care on one side of the 
system, you're getting it all the way across.
    Mr. Schrock. Well, that's interesting, because I represent 
that area. And until I heard Mr. Emde, I thought everything was 
moving smoothly, but I guess every once in a while, one falls 
through. And I understand that. But as you say, they are 
working together very well.
    Mr. Ruppersberger.
    Mr. Ruppersberger. In order to really resolve the problem, 
and you're saying that there is a plan, the plan is starting to 
work, we really need to get to the root, I think, of the 
medical care problem. I'm wondering whether or not we need to 
do more as it relates to the medical care problem when the 
Reserves members are working in the private sector, before 
they're being activated, and whether we need a better system. 
Because if we have people that are coming on the weekends, once 
a month or whatever, and they're not ready and they're called 
up right away, then that not only hurts them, it hurts our 
country, it hurts anybody in Afghanistan, Iraq or wherever we 
are.
    What can we do? I should ask each individual, but I'm 
wondering whether or not there's a better way to give and to 
provide the medical insurances necessary, so when, and it looks 
like we're going to be at war with terrorism for a long time, 
this isn't going to stop, do you think we can really take the 
individuals that are working for small companies and roll them 
into a plan?
    Now, of course, there's a cost issue whenever you talk 
about that. So could you comment, I guess the whole panel 
comment on that issue, and maybe that's where we need to start 
before we even activate them to the next level.
    Dr. Winkenwerder. Yes, Congressman, let me talk about that. 
We currently, under the provisions that were just passed last 
fall by the Congress, there is now authorization for the 
Reserve units to perform screening, medical and dental exams 
and followup care that to my understanding did not exist 
before. So I think that's a very important new change, it is a 
permanent change.
    Mr. Ruppersberger. Explain that, though. That means that 
the Reserve will provide for the medical care and the physicals 
and----
    Dr. Winkenwerder. Screening.
    Mr. Ruppersberger. Screening.
    Dr. Winkenwerder. That's correct.
    Mr. Ruppersberger. We have a large amount of Reserve and 
National Guard throughout the country. Has it been implemented 
yet?
    Dr. Winkenwerder. It's being implemented as we speak.
    Mr. Ruppersberger. Every Reserve and National Guard unit in 
the country?
    Dr. Winkenwerder. Well, I spoke about 3 weeks ago with 
General Helmly, and all the Reserve component chiefs, and they 
indicated to me that they were implementing this new provision. 
So I think that's a key step forward.
    The second is what we've talked about. I don't know if you 
were here earlier when we spoke about this whole new metric 
called individual medical readiness. It's a new system that we 
put into place for active and Reserve and Guard that identifies 
all the things that an individual needs to do to be medically 
ready and identifies the interval of time that those types of 
things need to be done on a regular basis, so that what's 
important is that we have a clear set of expectations, not just 
for our medical leaders, but for our Reserve component and 
active component line commanders, so that they know what they 
are accountable to do, to have all their troops, sailors, 
soldiers and so forth ready.
    This is a system that's being implemented. It was actually 
developed by all three Services together. Air Force had a 
little bit of a lead time on it and had been working on 
something similar to this for the past couple of years, so 
they're a little further ahead than Army and Navy. But it is 
being implemented, we are looking at the performance on a 
monthly basis. So I think that's another very key component. 
The question you raised is whether health insurance, does that 
factor in here.
    Mr. Ruppersberger. Before that, let me ask you this 
question. Is health insurance available to any member of the 
Reserve and National Guard?
    Dr. Winkenwerder. If they are not on active duty or have 
not been called up, they would obtain health insurance through 
their employer.
    Mr. Ruppersberger. You didn't answer my question. Is it 
available to any member of the National Guard or to the Army 
Reserve?
    Dr. Winkenwerder. Let me have Mr. Spruell answer.
    Mr. Spruell. I would just point out, Congressman, that 
about 80 percent of the Guard and Reserve members today have 
civilian employer health insurance. Of the other 20 percent, 
they're mostly young and single and they make a conscious 
decision, to a great extent, not to elect health insurance. 
They would probably do the same thing if the military would 
offer them coverage, for which they would have to pay.
    Mr. Ruppersberger. But still, is there any insurance 
available to Army Reserve and National Guard? That's the 
question.
    Mr. Spruell. Through their civilian employers, yes, sir.
    Mr. Ruppersberger. Not civilian. I mean, does the DOD 
provide for those individuals that do not have medical 
insurance through their employer or might want to choose? 
There's no plan now that exists for that?
    Dr. Winkenwerder. The current benefit covers those who are 
activated. Those who are activated.
    Mr. Ruppersberger. I know that. So what we're really saying 
then is, we don't have a plan, even though we have a large 
group of people, we don't have a medical insurance plan for 
anyone who decides to join the Reserve or National Guard, until 
they are activated? Is that the case?
    Dr. Winkenwerder. With some exceptions.
    Mr. Ruppersberger. I'm not trying to trick you.
    Dr. Winkenwerder. I understand you're not, and I'm trying 
to be as clear as I can. Currently, with the temporary 
provision that the Congress passed last fall, there was a 
provision that would have us implement a buy-in into TRICARE 
where the Reserve member and family could buy in, if he or she 
was unemployed and did not have access to employer based 
insurance. That's a temporary provision that goes away at the 
end of this year.
    Mr. Ruppersberger. It seems to me, I talked in the 
beginning about the root cause of the problem. When you have a 
large group of people and now that we have asked more of our 
National Guard and our Reserve, it would be in the best 
interest of our country, I think, of our military, of our men 
and women on the front lines to at least evaluate whether or 
not as a group we should provide something there.
    Now, again, cost is an issue, we have to look at it. But in 
the end, if we have people that are not healthy on the front 
lines, that's not helping anybody, including our country, the 
men and women that are with those individuals.
    Dr. Winkenwerder. Let me answer one part of that. We do 
want to evaluate that. And we are suggesting a demonstration 
project to look at that issue, because this is, if it were to 
be done in such a major move, costing quite a lot of money and 
the question is, would it have any impact on either readiness, 
retention or recruitment. We believe it is something that ought 
to be studied.
    Mr. Ruppersberger. Because, you mentioned another issue 
that's very important, because of some of the issues that have 
occurred, and the problems that have occurred. It seems to me 
we need incentives for recruitment and that would be a strong 
incentive.
    But more so when you mentioned the individual who was young 
and might not think they need insurance because they want to 
use that money for something else, those people, those 
individuals might not be ready for when we need them. So I 
think it's something we really have to look at and raise the 
issue. Mr. Spruell.
    Mr. Spruell. I was just going to point out, sir, that we do 
offer the TRICARE dental program, which is the same one that 
active family members have, for selected Reserve members and 
their families. About 30,000 out of 870,000 selected Reservists 
have opted to take that.
    Mr. Ruppersberger. You say selected.
    Mr. Spruell. The selected Reserve consists of the units and 
individuals with the highest priority, highest readiness folks.
    Mr. Ruppersberger. OK.
    Admiral Brannman. If I could make a comment, part of that, 
the argument is going to discuss about insurance, we're 
trailing the duck here. Where our focus really is going in DOD 
today is to get these guys healthy and keep them healthy. We 
have initiated with our active force and into our Reserve 
forces our preventive health assessment system, where in 
addition to the physicals, we're testing you on a semi-annual 
basis to ensure that you're fit.
    And part of that, as part of that fitness process, is to 
sit down with you, have you do a health assessment which we 
track and it has a list of indicators on there that if you 
answer yes to any of these issues on here, then you have to 
have a followup medical examination to pick up problems early. 
We're going toward a prevention and a health based system just 
so we head these things off----
    Mr. Ruppersberger. As you should. That's the way it's done.
    Admiral Brannman. And that's the system that we really are 
banking on for the future, is force health protections starts 
before the war starts. You start with the soldier, the sailor, 
the airman, the marine when you recruit them. They're part of 
the team and you take care of their health from day one, so 
that we don't end up with a first sergeant ready to mobilize 
who's got a bag full of prescription drugs. You knew that 
individual was developing stuff when he was a private, and 
you're keeping track of him, keeping him in a healthy 
lifestyle. That's the direction we're moving for today.
    Mr. Ruppersberger. I agree with what you said, and that's 
the way we want it to work. Implementation is another matter. 
But the bottom line, you need to set up a system. It seems to 
me that if we're going to be relying on our National Guard and 
Reserve, and also recruitment and retention, too, we need to 
deal with the issue of benefits, but we need a system that 
works. If you have individuals and Reserve National Guard that 
are not ready from a medical perspective, as the career, and 
you put them all on the front line together, then you're going 
to have an issue that could be a deterrent to our country, to 
our men and women in the military.
    What I'm doing is just raising the issue. I think we have 
to look at the whole system, especially whether or not we need 
to provide that incentive, so that we make sure everybody who's 
a member is going to be taken care of, there's a system of 
prevention, there's a system of examinations and then you 
prevent it before you get to the level where it gets worse or 
before you're activated and you're over in Iraq or Afghanistan 
and all of a sudden you have this severe medical problem that's 
taking the space of somebody that might have gotten shot.
    So I'm raising that issue, I would hope you would take it 
back and we can follow through on whether or not we should 
provide. But of course, cost is an issue. But that cost factor 
could be brought down if you put the right system in place, 
medical system. Thank you.
    Mr. Schrock. Thank you. Is there anything that you 
gentlemen would like to add for the record?
    Dr. Winkenwerder. Just to say that we're absolutely 
committed to a world class health system for all of our forces, 
active and Reserve. You've identified, and this panel that 
preceded us identified some issues. We're committed to 
addressing those issues, to solving problems and to continual 
improvement. I've got great confidence that the Army, Navy and 
Air Force are focused to solve the problems that have been 
identified.
    Mr. Schrock. Great. I appreciate that. I appreciate this 
panel, and I appreciate the last panel. I think we need to 
remember, we recruit soldiers and we re-enlist families. If we 
don't keep mom and the kids happy, dad's not going to hang 
around very long. I think the one thing we need to more of, I 
guess, is that we heard some stories today, hopefully they are 
unique. If they're not, then we need to get our hands around 
it.
    I think the one thing that I'm troubled about is the 
medical issue, is the financial difficulties we've caused 
folks. The Ramseys brought up an example. My guess is they had 
perfect credit ratings until this happened and now their credit 
has been damaged, maybe forever. When I was in the Navy I ran 
into this, somebody had a Social Security Number very close to 
mine, and it caused me incredible grief for 2 or 3 years, and 
cost lots of money to get it fixed.
    We created this problem for the Ramseys, and I include 
myself in that, and we need to fix it. I want their banking 
institution to know that we did that, and get them back on even 
keel. Because I'll tell you, the Ramseys, if you try to get a 
loan or refinance your house, you're going to buck up against 
this for years and years to come, and we owe it to you and the 
others we've created this problem for to fix that, and I hope 
we'll do that. That's the one thing I want to leave you with. I 
don't want to hear any more stories about people being damaged 
financially.
    And it wasn't done intentionally, I understand that. But 
the fact is, it was, and we need to get that fixed.
    Again, I thank the first panel, I thank you gentlemen for 
coming here, and this hearing is adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5289.137

[GRAPHIC] [TIFF OMITTED] T5289.138

[GRAPHIC] [TIFF OMITTED] T5289.139

                                 <all>

</pre></body></html>
